                   OFFICE OF INSPECTOR GENERAL
         CORPORATION FOR NATIONAL AND COMMUNITY SERVICE




                         Incurred Cost Audit of Grants Awarded
                                         to the
                        Missouri Community Service Commission




                             OIG Audit Report Number 02-1 1
                                  September 25, 2001


                                   Financial Schedules
                                           and
                              Independent Auditors' Report
                                      For the Period
                          January 1, 1994 to December 3 1,2000




                                        Prepared by:

                                       KPMG LLP
                                   200 1 M Street, N.W.
                                  Washington, D.C. 20036

                                Contract No. GS 23F 8 l27H
                               Task Order No. 00-01, Task F



This report was issued to Corporation management on February 21, 2002. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than August 20, 2002, and complete its
corrective actions by February 21, 2003. Consequently, the reported findings do not necessarily
represent the final resolution of the issues presented.
                                                                                                     CORPORATION
                               Office of Inspector General                                            FOR NATIONAL
                     Corporation for National and Community Service
                                   Audit Report 02-11

                       Incurred Cost Audit of Grants Awarded to the
                         Missouri Community Service Commission

Introduction

The Corporation for National and Community Service, pursuant to the authority of the
National and Community Service Act, awards grants and cooperative agreements to state
commissions, nonprofit entities, tribes and territories to assist in the creation of full and
part time national and community service programs. Currently, in accordance with the
Act's requirements, the Corporation awards approximately two thirds of its AmeriCorps
Staternational funds to state commissions. The state commissions in turn fund and are
responsible for the oversight of subgrantees who execute the programs. Through these
subgrantees, AmeriCorps members perform service to meet educational, human,
environmental, and public safety needs.

OIG engaged KPMG LLP to audit Corporation grants to the Missouri Commission and
its subgrantees for the period from January 1, 1994 through December 3 1, 2000 for
AmeriCorps, Administration, and Professional Development and Training programs. The
auditors identified total questioned claimed costs1 of $7,903,629 (approximately 66%)
out of total awards of $12,050,477 for the thirteen subgrantees subjected to detailed
testing. The majority of the questioned costs resulted either from the inability of
subgrantees to provide supporting documentation or the lack of sufficient awareness by
subgrantees of member eligibility requirements in the AmeriCorps Provisions.

The auditors identified a number of conditions relating to internal control over financial
reporting that require correction. Two of them were determined to be material
weaknesses. First, the report concludes that the Commission lacked adequate procedures
for monitoring the financial activity and related compliance with laws and regulations of
its subgrantees, especially retention of verifiable records to support claimed costs and
reported program results. The second material weakness related to the absence of an
effective system at the Commission for ensuring quality control of accounting and
financial report activities and for assessing the system for internal controls for
safeguarding assets, producing reliable financial reports, and complying with laws and
regulations.

Since the Commission did not have an adequate system in place during the audit period
to monitor its subgrantees' financial and programmatic activities and some of the
subgrantees failed to maintain adequate accounting andlor program files, the scope of the

' Questioned costs are costs for which there is documentation that the recorded costs were expended in
violation of Federal laws, regulations or the specific conditions of the award, costs which require additional
support by the grantee, or which require interpretation of allowability by the Corporation.

                                                                                                  Inspector General
                                                                                                  1201 New York Avenue, NW
                                                                                                  Washington, DC 20525
audit work was not sufficient to enable the auditors to express an opinion on the
Commission's Schedules of Award Costs. The report explains that this disclaimer results
from the lack of controls over financial reporting and compliance, the significance of the
questioned costs, identified in relation to the total claimed costs and the nature of other
report findings.

OIG has reviewed the report and the work papers supporting the auditors' conclusions.
We agree with the findings and recommendations presented.

OIG provided the Commission and the Corporation a draft of this report for their review
and comment. Their responses are included in their entirety as Appendices A and B,
respectively. The Commission expressed concern regarding the audit scope, methods
used to calculate certain questioned costs and the applicability of regulatory provisions on
record retention and citizenship verification. While the Commission disagreed with a
number of the questioned costs and some of the findings, it reported completion of
corrective actions on other findings. The Corporation disagreed with the auditors on the
propriety of using Immigration and Naturalization Form 1-9 to document US citizenship
or legal status as a permanently resident alien and on AmeriCorps record retention
requirements. The auditors have responded to the Commission's and the Corporation's
comments in Appendices C and D, respectively.

OIG recommends that the Corporation conduct additional oversight and monitoring of
the Commission to evaluate new procedures and controls with testing at both the
Commission and at the subgrantee level and to determine whether these corrective
actions are effective.
                                        Office of Inspector General
                              Corporation for National and Community Service
                               Incurred Cost Audit of Grants Awarded to the
                                 Missouri Community Service Commission



                                                      Table of Contents




INDEPENDENT AUDITORS' REPORT .................................................

Summary ........................................................................................................

Report on the Consolidated Schedule of Award Costs .................................

Schedule of Award Costs (Exhibits A .C) ...................................................

     Exhibit A .Consolidated Schedule of Award Costs:
        AmeriCorps ........................................................................................

     Exhibit B .Schedule of Award Costs:
        Administration ...................................................................................

      Exhibit C .Schedule of Award Costs:
         Program Development and Training ..................................................

     Notes to Schedules of Award Costs .........................................................

Report on Internal Control Over Financial Reporting ...................................

      Material Weaknesses
         Grants and Program Management .....................................................
         Financial Management and Reporting ...............................................

Report on Compliance ..................................................................................

      AmeriCorps Grant

           Compliance Findings Resulting in Questioned Costs ........................
           Other Compliance Findings ...............................................................
     Administrative and Program Development and Training (PDAT) Grants

          Compliance Findings Resulting in Questioned Costs ........................

     Other Procedures ......................................................................................

Responsibilities
                            ...
     Management's Responslblllty ..................................................................
     Auditors' Responsibility ..........................................................................

Distribution ....................................................................................................

Supplemental Schedules of Award Costs (Exhibits D- 1 through D- 13) .......

           Exhibit D-1 . Schedule of Award Costs:
           Grace Hill Neighborhood Services. Inc .............................................

           Exhibit D-2 Schedule of Award Costs:
                             .

           American Youth Foundation ..............................................................

           Exhibit D-3 .Schedule of Award Costs:
           YMCA of Greater Kansas City ..........................................................

           Exhibit D-4 Schedule of Award Costs:
                             .

           Urban League of Kansas City ............................................................

           Exhibit D-5 .Schedule of Award Costs:
           Lincoln University .............................................................................

           Exhibit D-6 . Schedule of Award Costs:
           University of Missouri .Rolla ...........................................................

           Exhibit D-7 .Schedule of Award Costs:
           Youthnet of Greater Kansas City .......................................................

           Exhibit D-8 .Schedule of Award Costs:
           United Way of the Ozarks .................................................................

           Exhibit D-9 .Schedule of Award Costs:
           Southeast Missouri State University ..................................................

            Exhibit D-10 . Schedule of Award Costs:
            University of Missouri .Kansas City ................................................
       Exhibit D-11 - Schedule of Award Costs:
       Republic RIII School District ............................................................

       Exhibit D-12 - Schedule of Award Costs:
       St. Joseph Youth Alliance ..................................................................

       Exhibit D-13 - Schedule of Award Costs:
       Della Lamb Community Services ......................................................

Exhibit E - Pre-Audit Survey Findings and Recommendations. ...................

APPENDICES

Responses to Report

   Missouri Community Service Commission ............................................. Appendix A
   Corporation for National and Community Service ..................................Appendix B

KPMG's Comments on Responses to Report by the

    Missouri Community Service Commission .............................................Appendix C
    Corporation for National and Community Service ..................................Appendix D
             2001 M Street, N.W
             Washington, D.C. 20036




                                                 Independent Auditors' Report



Inspector General
Corporation for National and Community Service:

At your request, KPMG LLP performed an incurred cost audit of the costs claimed by the
Missouri Community Service Commission and its subgrantees for the period from
January 1, 1994 through December 3 1,2000. The primary objective of the incurred cost
audit was to express an opinion concerning whether the Schedules of Award Costs
(Exhibits A through C) fairly present the costs incurred by the Commission, during the
period under audit, in conformity with the terms of the Commission's grant agreements
with the Corporation for National and Community Service. Additionally, in planning and
performing our audit we also considered the Commission's internal controls over
financial reporting and its compliance with Federal laws, applicable regulations, and
award Provisions. Further, we inquired of the Commission and its subgrantees selected
for audit, as to their awareness of the Corporation's Government Performance and
Results Act (GPRA) goals.

SUMMARY

Our report expresses a disclaimer of opinion on the Commission's Schedules of Award
Costs due to the lack of controls over financial reporting and compliance, as well as the
nature of the findings identified, and the significance of the questioned costs identified in
relation to total costs incurred.

Our consideration of internal control over financial reporting, identified a number of
matters which require correction. We consider the following conditions to be material
weaknesses:

        Grants and Program Management - Adequate procedures for monitoring the
        financial activity and related compliance with laws and regulations of the
        Commission's subgrantees were not in place. Procedures for ensuring that
        verifiable records are maintained to support reported results in accordance with
        program requirements were not effective.

        Financial Management and Reporting - An effective system for ensuring
        quality control of accounting and financial reporting activities at the Commission
        for the period under review was not in place. Additionally, a comprehensive
        process for assessing the system of internal control for safeguarding assets,




1111         KPhlG LLP KPMG L L P a U S lkrnftedlhabtltty ~partnerihlp IS
             a member of KPMG Internatonal a Swss a5saciaton
                                                                            1
       producing reliable financial reports, and complying with laws and regulations was
       not in place.

Our tests of compliance with laws and regulations disclosed instances of noncompliance
resulting in total questioned claimed costs of $7,903,629 out of total awards of
$12,050,477 for 13 subgrantees tested, match of $3,545,277, and $3,017,408 related to
Education Awards that may have been awarded to ineligible members.

The majority of the questioned costs were due either to the inability of subgrantees to
provide supporting documentation due to record retention policies that did not comply
with AmeriCorps Provisions, or inadequate guidance in interpreting the compliance
requirements related to eligibility.

       Lack of Adequate Record Retention - The AmeriCorps Provisions state that the
       grantee must retain and make available all financial records, supporting
       documentation, statistical records, evaluation data, member information and
       personnel records for 3 years from the date of the submission of the final
       expenditure report (Financial Status Report). However, most of the grants at the
       MCSC have not had their final Financial Status Report submitted. In addition, the
       Corporation has not closed out any of these grants. Because the Corporation did
       not specifically inform the Commission on the length of time the records related
       to the AmeriCorps program needed to be maintained, the Commission, in turn,
       did not provide this guidance to its subgrantees. For some subgrantees, the lack
       of documentation was a result of change in subgrantee location or management,
       and in other cases it was due to the subgrantee records retention policy being
       much shorter than the AmeriCorps requirement. Of the above questioned claimed
       costs, $2,113,827 represents amounts related to the lack of supporting financial
       records such as general ledgers and payroll records.

       Lack of Guidance in Interpreting Eligibility Requirements - Prior to the
       issuance of Federal Register, volume 64, No. 132, dated July 12, 1999, the
       Commission or its subgrantees did not have specific guidance from the
       Corporation on the types of documentation required to verify citizenship
       eligibility of AmeriCorps members. The majority of the subgrantees that we
       audited maintained an 1-9 form issued by the U. S. Immigration and
       Naturalization Service along with documents to support employment
       authorization verification (e.g., social security card, driver's license) rather than to
       support Citizenshiplresident eligibility (e.g., birth certificate, passport, green
       card). As such, our Report on Compliance identified significant questioned costs
       for the earlier program years related to noncompliance with citizenship eligibility
       requirements. Of the above questioned claimed costs, $5,578,726 represents
       amounts related to not meeting eligibility requirements.

The Corporation, pursuant to the authority of the National and Community Service Act of
1990, as amended, awards grants and cooperative agreements to State Commissions,
nonprofit entities and tribes and territories to assist in the creation of full and part time
national and community service programs. State Commissions are prohibited from
directly operating national service programs. State Commissions provide AmeriCorps
funding to approved applicants for service programs within their states and are
responsible for monitoring these subgrantees' compliance with grant requirements.
These awards provide funding for AmeriCorps members to perform service to meet
educational, human, environmental, and public safety needs throughout the nation. In
return for this service, eligible members may receive a living allowance and post service
educational benefits.

The Missouri Community Service Commission, located in Jefferson City, Missouri,
operates as part of the State of Missouri's Department of Economic Development, but
was formerly a part of the State of Missouri's Lt. Governor's Office (prior to December
1996). The Corporation and the State of Missouri provide the only sources of funding for
the Commission. Receipt and disbursement of grant funds are processed and accounted
for within the State of Missouri's general ledger system. The Commission has received
AmeriCorps grant funds from the Corporation since program year 1994-95.

The total amount of AmeriCorps funding expended by the Commission through March
3 1,2001 was $12,942,856. This amount includes amounts expended by 13 Commission
subgrantees selected for detail audit work, and amounts expended by all other
Commission subgrantees, through March 3 1,2001. Of this total, we questioned 66% of
the amounts expended by the 13 subgrantees through December 3 1,2000, and 6 1% of the
amount expended overall.

Only three of the 13 MCSC subgrantees that we selected for detail audit work currently
continue to receive Corporation funds. They are American Youth Foundation, United
Way of the Ozarks, and Republic RIII School District. Nonetheless, the various
compliance issues identified in relation to all subgrantees indicate that the Commission
needs to provide more guidance to subgrantees on record retention and documentation
standards for such items as eligibility, time sheets, member service hours, AmeriCorps
roster updates on member status, and other claimed costs submitted for reimbursement
and matching costs reported. In addition, the Commission should establish policies and
procedures to ensure that its subgrantees maintain financial management systems that are
capable of distinguishing expenditures attributable to grant and non-grant funding,
identify costs by line item, and differentiate between direct and indirect costs and
maintain a clear audit trail. The Commission should also implement policies and
procedures requiring its subgrantees to review member support and program operating
matching requirements and ensure compliance.

The following sections comprise our report on the Schedules of Award Costs, our
consideration of the Commission's internal control over financial reporting, our tests of
the Commission's compliance with certain Provisions of applicable laws, regulations, and
the Provisions of the Corporation's grant awards, and the Commission's and our
responsibilities.
REPORT ON THE SCHEDULE OF AWARD COSTS

We were engaged to audit the accompanying AmeriCorps Consolidated, Administration,
and Program Development and Training (PDAT) Schedules of Award Costs (Exhibits A
through C) for the Missouri Community Service Commission, a grantee of the
Corporation for National and Community Service, for the awards and award periods
listed below:

       Program                 Award Number           Award Period

       AmeriCorps              94ASCM0026             8/1/94 - 12131/00

       Administration          94SCSTM0024            12129193- 12131/00

       PDAT                    95PDSM0024             1/1/95 - 12131/00

Our audit period covered program years 1994-95 through 1999-00 for AmeriCorps,
Administration, and PDAT programs.

As discussed in our Report on Internal Control over Financial Reporting and our Report
on Compliance, the Commission did not have an adequate system in place, during the
period under audit, to monitor the financial and programmatic activities of its
subgrantees. Additionally, certain of the Commission's subgrantees did not maintain
adequate accounting records and/or AmeriCorps program files, and adequate evidential
matter in support of recorded transactions was not available in all cases. As a result, we
identified instances of noncompliance and questioned costs, which are material to the
Schedules of Award Costs.

Further, there were several changes in Commission and subgrantee employees and key
management personnel during the period under audit, and certain former subgrantees no
longer participate in or administer the AmeriCorps Program. As a result, present
management of both the Commission and its subgrantees were unable to furnish us with
knowledgeable representation of facts and circumstances regarding certain transactions
arising during the period under audit. It was impracticable to extend our procedures
sufficiently to determine the extent to which the Schedules of Award Costs may have
been affected by the foregoing conditions.

Because of the matters discussed in the two preceding paragraphs, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on the
accompanying AmeriCorps Consolidated, Administration, and Program Development
and Training Schedules of Award Costs.

The Schedules of Award Costs by subgrantee (Exhibits D-1 through D-13) are presented
for additional analysis of the AmeriCorps Consolidated Schedule of Award Costs
(Exhibit A) rather than to present the costs incurred by the individual subgrantees.
Because of the matters discussed in the second and third preceding paragraphs, the scope
of our work was not sufficient to enable us to express, and we do not express, an opinion
on this information.
                                                                                      Exhibit A


                            Missouri Community Service Commission
                                           AmeriCorps
                             Consolidated Schedule of Award Costs
                          August 1,1994 to December 31,2000 (See Note)




                                          Approved            Claimed            Questioned
Cost Category                              Budget              Costs               Costs

Corporation Funds
Award Costs for Audited Subgrantees:
  Member Support
  Other Member Support Costs
  Staff
  Operating
  Evaluation
  Administration

  Childcare
      Subtotal
Other Award Costs (See Note):
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS




Note:
The approved budget amounts and claimed cost totals reflected above as "Award Costs for
Audited Subgrantees" are the total of such costs for the 13 AmeriCorps subgrantees selected for
detail audit work. The Commission was not able to provide us a breakdown of approved budget
amounts and claimed costs for all other AmeriCorps subgrantees through December 3 1,2000.
Consequently, the "Other Award Costs" amount reflected above represents all claimed costs
through March 3 1, 2001 for subgrantees that were not audited, plus claimed costs for subgrantees
that were audited for an additional three month period from January 1, 2001 through March 31,
200 1.



                      See accompanying notes to Schedules of Award Costs.
                                                                             Exhibit B


                             Missouri Community Service Commission
                                  Administration BudgetIActual
                                    Schedule of Award Costs
                             December 29,1993 to December 31,2000




                                            Approved            Claimed     Questioned
Cost Category                                Budget              Costs        Costs

Staff
      Salaries
      Taxes and Benefits
Subtotal

Travel
      Commission Members
      Staff
      Others
Subtotal

Subcontracts, Grants, etc.

Operational:
       Supplies
       Equipment
       Communications
       Space
Subtotal

Other

Specific-purpose, unmatched funds

Total Corporation Funds

Total Matching Funds

TOTAL FUNDS




                      See accompanying notes to Schedules of Award Costs.
                                                                             Exhibit C


                        Missouri Community Service Commission
                        Program Development and Training (PDAT)
                               Schedule of Award Costs
                          January 1,1995 to December 31,2000


                                           Approved        Claimed       Questioned
Cost Category                               Budget          Costs          Costs

Staff Salaries & Benefits

Program Staff TravelIPer Diem

Consultants



Sub-contracts, Sub-grants

Communication
      Systems
      Equipment
Subtotal

Supplies
      Workshops
      Newsletter
      Other
Subtotal

Other

Special Initiatives (ERT)

TOTAL FUNDS




                   See accompanying notes to Schedules of Award Costs.
                      Missouri Community Service Commission
                         Notes to Schedules of Award Costs


1. Summary of Significant Accounting Policies

Reporting Entity

The accompanying Schedules of Award Costs include amounts budgeted, claimed, and
questioned under AmeriCorps, Administrative, and Program Development and Training
grants awarded to the Missouri Community Service Commission by the Corporation for
National and Community Service for the period from January 1, 1994 to December 3 1,
2000.

The Commission subsequently awards its AmeriCorps grant funds to numerous
subgrantees that administer the AmeriCorps program and report financial and
programmatic results to the Commission.

Basis of Accounting

The accompanying Schedules have been prepared to comply with the Provisions of the
grant agreements between the Corporation and the Commission. The information
presented in the Schedules has been prepared from the reports submitted by the
Commission to the Corporation. The basis of accounting used in preparation of these
reports differs slightly from accounting principles generally accepted in the United States
of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of
being recognized as an asset and depreciated over its useful life. As a result, the expenses
reflected in the Schedules of Award Costs include the cost of equipment purchased
during the period rather than a provision for depreciation. The equipment acquired is
owned by MCSC while used in the program for which it was purchased or in other future
authorized programs. However, the Corporation has reversionary interest in the
equipment. Its disposition, as well as the ownership of any proceeds therefore, is subject
to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
Questioned Costs

Questioned costs are costs for which there is documentation that the recorded costs were
expended in violation of the law, regulations or specific conditions of the awards, or
those costs which required additional support by the grantee or which require
interpretation of allowability by the Corporation. Certain amounts included in questioned
member support costs are based on estimates. Questioned costs included on the
accompanying Schedules do not include potentially disallowed Education Awards related
to ineligible members. Such additional questioned costs amount to $3,017,408.

A detailed reconciliation of amounts identified as questioned costs in the Report on
Compliance to those reflected on Exhibit A is presented on the following pages.
                                                              Summary o f Questioned Costs




                                          Finding       Grace Hill                                  YMCA of
                                          number       Neighborhood        American Youth         Greater Kansas    Urban League         Lincoln
                Finding                  Reference       Services           Foundation                 City         of Kansas City      University
      roned Claimed Costs
Lack of Adequate Financial Records
Lack of Documentation
   Eligibility Requirements
   Time and attendance records and
   proper authorization of
General ledger andlor payroll
records were not maintained
Documentation to support Member's
term of service
General ledger detail did not agree to
monthly reimbursement requests
Documentation to support selected
payments under the grant

Improper/inelgible payments made

Matching requirements were not met
  Subtotal

Questioned Match
Lack of Adequate Financial Records
Lack of Documentation
   Eligibility Requirements
   Time and attendance records and
   proper authorization of
Documentation to support Member's
term of service
General ledger detail did not agree to
monthly reimbursement requests
Match amounts claimed are not
properly supported
   Subtotal
                                Total


                                         * The questioned cost of $862,941 in finding "General ledger andlor payroll records were not maintamed"
                                         for American Youth Foundation includes total program operating costs for program years 1994-95
                                         and 1995-96 as the general ledger did not break out expenditure categories


                                                                                                                                       (Continued)
                                                               Summary of Questioned Costs




                                         University of    Youthnet of                           Southeast       Un~versityof
                                          Missouri -     Greater Kansas    United Way of the   Missouri State    Missouri -    Republ~cRlll
               F~nding                      Rolla             City              Ozarks          University      Kansas City    School D~strict
Qlcerrioned Claimed Co&
Lack of Adequate Financial Records                         $    423,728
Lack of Documentation
   Eligibility Requirements                    30,133           24 1,576            872,852          377,625         133,424           7,568
   Time and attendance records and
   proper authorization of                                                                                             8,276
General ledger andlor payroll
records were not malntained
Documentation to support Member's
term of service
General ledger detail did not agree to
monthly reimbursement requests
Documentation to support selected
payments under the grant

lmproperlinelgible payments made

Matching requirements were not met                                                                    2 1,537
  Subtotal                                     30,133           665,304             872,852          399,162         142,693           9,393

Queslioned MgLEh
Lack of Adequate Financial Records                              350,368
Lack of Documentation
   Eligibility Requirements                     5,308           207,7 15
   Time and attendance records and
   proper authorization of
Documentat~onto support Member's
term of service
General ledger deta~ldid not agree to
monthly reimbursement requests
Match amounts claimed are not
properly supported
   Subtotal                                     5,308
                               Total        $ 35.441




                                                                                                                               (Continued)
                                                              Summary of Questioned Costs




                                                            Della Lamb           Total
                                         St. Joseph Youth   Community          Questioned
              Findmg                          Alliance       Services            Costs
Qlmioned Claimed CosLZ
Lack of Adequate Financial Records                                             $ 1,209,518
Lack of Documentation
   Eligibility Requirements                      442,3 15       57,389           5,578,726
   Time and attendance records and
   proper authorization of                        15,925                            25,420
General ledger andlor payroll
records were not maintained                                                        904,309
Documentation to support Member's
term of service                                                 24,595              24,595
General ledger detail did not agree to
monthly reimbursement requests                                  79,121              79,121
Documentation to support selected
payments under the grant                          30,373                            47,863

Improperlinelgible payments made                                                        114

Matching requirements were not met                                                   33,965
  Subtotal                                       488,613        161,105           7,903,63 1

cb.Wioned Match
Lack of Adequate Financial Records                                                 703,363
Lack of Documentation
   Elig~bilityRequirements                        88,535         10,127           1,333,528
   Time and attendance records and
   proper authorization of
Documentat~onto support Member's
term of service                                                   4,340               4,340
General ledger detail did not agree to
monthly reimbursement requests                                  147,770             147,770
Match amounts claimed are not
properly supported                                                                1,356,276
   Subtotal                                       88,535         162,237          3,545,277
                                Total       S    577,148      16 323,342   S     11,448,908
                                                                           P
REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING

We noted certain matters, described below, involving internal controls over financial
reporting that we consider to be reportable conditions under standards established by the
American Institute of Certified Public Accountants. We believe the reportable conditions
identified as items 1 and 2 described below are material weaknesses. These conditions
were considered in determining the nature, timing, and extent of the procedures to be
performed in our audit of the Schedule of Award Costs of MCSC for the period from
January 1, 1994 to December 3 1,2000.

Our consideration of internal controls would not necessarily disclose all matters in
internal control over financial reporting that might be reportable conditions and,
accordingly, would not necessarily disclose all reportable conditions that are also
considered to be material weaknesses. Reportable conditions involve matters coming to
our attention relating to significant deficiencies in the design or operation of the internal
controls, that, in our judgment, could adversely affect the Commission's ability to record,
process, summarize, and report financial data consistent with the assertions of
management in the Schedules.

A material weakness is a reportable condition in which the design or operation of one or
more of the internal control structure elements does not reduce to a relatively low level
the risk that misstatements, in amounts that would be material in relation to the financial
schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Because of
inherent limitations in internal control, misstatements due to error or fraud may occur and
not be detected.

The objective of our audit was not to provide assurance on the Commission's internal
controls over financial reporting. Consequently, we do not provide an opinion on internal
control over financial reporting.

The following paragraphs present reportable conditions identified during our incurred
cost audit of the Schedules of Award Costs, and the unresolved reportable conditions that
were identified during a pre-audit survey conducted in early 2000. A more detailed
summary of the status of reportable conditions as first reported in OIG Audit Report
Number 00-17', Pre-Audit Survey of the Missouri Community Service Commission issued
on March 28,2000, is presented as Exhibit E.

1. Grants and Program Management

The Missouri Commission is responsible for evaluating whether its subgrantees comply
with legal, reporting, financial management and grant requirements and ensuring follow
through on issues of noncompliance. The Commission did not have a comprehensive

' OIG Report 00-17;Pre-Audit Survey of the Missouri Community Service Commission was issued March
28,2000. For additional information, including the responses by MCSC and CNS,please request copies of
this report from CNS OIG.
program to monitor the programmatic activity of all subgrantees to ensure adequate
attention was given to compliance issues and that documentation was retained as
evidence of compliance for much of the period audited. We noted that, for much of the
period audited, the Commission employed between two and five employees, and that it
has experienced significant turnover and reorganization since its inception. As a result,
we identified control weaknesses and instances of noncompliance resulting in significant
questioned costs.

We obtained the AmeriCorps member rosters from the National Service Trust database
for the individual program years for each of the 13 subgrantees selected for audit in order
to select member files for testing. The following subgrantee rosters (obtained from the
Corporation and represented to us as current) for the respective program years did not
appear accurate or complete, or had not been properly updated, as many of the programs
are no longer in existence at some of these subgrantees, or the program year ended
several years prior to our audit.

Subgrantee                                   I Program Year and Exception
Youthnet of Greater Kansas City              1 1994-95 lists 40 members earning an award
                                                  1996-97 lists 2 active members
Southeast Missouri State University               1997-98 lists 1 member earning an award
                                             1    1996-97 lists 20 members earning an award
                                                  1995-96 lists 4 members earning an award
Grace Hill Neighborhood
              -         Services                  1996-97 lists 12 members earning an award
                                             1    1997-98 lists 17 members earning an award
YMCA of Greater Kansas City                  1    1996-97 lists 15 members earning an award
                                                  1998-99 lists 3 active members
Urban League of Kansas City                       1997-98 lists 4 active members
United Wav of the Ozarks                     1    1996-97 lists 3 active members
Della Lamb Community Services                1    1997-98 lists 2 active members
                                                  1998-99 lists 1 active member
Lincoln University                                1996-97 lists 2 members earning an award
University of Missouri - Rolla                    1997-98 lists 1 member earning an award
American Youth Foundation                         1997-98 Safety program lists 1 active
                                                  member
St. Josevh Youth Alliance                         1996-97 lists 1 active member
University of Missouri - Kansas City          1   1998-99 lists 1 active member

At the University of Missouri - Rolla, one additional member file tested for the 1997-98
program year was not listed in the AmeriCorps roster for that year. At the YMCA of
Greater Kansas City, one member was listed as pending enrollment in the 1998-99
program year roster; however, the YMCA did not have any record of this individual in
their files.

The Corporation relies on the Commission and its subgrantees to maintain systems and
management controls that provide accurate information related to member service to the
National Service Trust. The numerous noncompliance issues related to member status
forms identified above and in our Report on Compliance indicate that the Commission
needs to take more responsibility for the accuracy and completeness of member status
reporting by its subgrantees to the Corporation. In addition, failure to provide accurate
member information to the Corporation could result in erroneous education awards being
issued, and undermines the reliability of certain of the Corporation's GPRA statistics.

Further, during our audit of individual subgrantees, we identified the following internal
control deficiencies, which indicate inadequate monitoring by the Commission.

0   Eight of the thirty-four American Youth Foundation's vendor invoices reviewed for
    the 1994-95 program year did not have proper approval by an authorized individual.
0   Seven of eleven Urban League of Kansas City vendor invoices reviewed for the
    1997-98 program year did not have proper approval by an authorized individual.

Adequate internal controls include proper approval of all vendor invoices prior to
payment. Although the unauthorized invoices did not result in questioned costs, lack of
adequate internal controls as required by AmeriCorps Provisions could result in improper
payments with Corporation funds.

We recommend that the Commission take the following actions to improve its grants and
program management processes:

      Review and implement the recently developed policies and procedures to monitor
      the programmatic and financial activity of all subgrantees.
      Ensure adequate attention is given to compliance issues which may not be
      addressed even if a Single Audit in accordance with OMB Circular A-133, Audits of
      States, Local Governments and Non-profit Organizations, has been performed for
      any specific subgrantee.
      During site visits, the frequency of which should depend on the level of risk
      assessed by the Commission, ensure that subgrantees are compliant with revised
      guidance and are adequately following up on deficiencies communicated to them by
      the Commission.
      Although a majority of the subgrants subject to audit have expired as of the date of
      this report, the Commission should ensure that current subgrantees establish
      procedures by which all invoices are approved by an authorized individual prior to
      payment, and the documentation of such approval is maintained with the vendor
      invoice.
2. Financial Management and Reporting

The Commission is required to select organizations for award, administer Corporation
grant funds and monitor subgrantees for financial activities and compliance with laws,
regulations and Provisions of grant awards. The Corporation's regulations describe
standards for financial management systems that must be maintained by State
Commissions. OMB Circulars also establish standards for monitoring, compliance
oversight, record retention, documentation and allowable costs.

As noted above and in Exhibit E, our pre-audit survey procedures' revealed that the
Commission had minimal controls in place to provide reasonable assurance that grant
funds were administered according to Corporation and Federal guidelines, and
inadequate procedures for maintaining internal controls that provide accurate, current,
and complete disclosure of financial and programmatic results.

Many of the weaknesses identified at the Commission during the pre-audit survey were
also apparent through exceptions identified for individual subgrantees of the
Commission, and resulted in significant questioned costs. Subsequent to the pre-audit
survey, the Commission has worked to develop, and is still developing, formal
procedures to improve controls and ensure compliance with all applicable regulations.
For example, the Commission updated its policies and procedures manual to address
conditions identified during the pre-audit survey and has developed procedures to review
subgrantee financial systems during the subgrantee selection process. It has also
developed a grant reimbursement review and approval form to be completed prior to
reimbursing subgrantees for program costs incurred. However, the following conditions
continue to exist and require corrective action.

       Timeliness of receipt of Financial Status Reports (FSR).
       Missing FSRs, supporting documentation for expenditures and programmatic
       progress reports.
       Noncompliance with suspension and debarment compliance requirement.
       Maintenance of supporting documentation and documentation of records obtained
       and reviewed during site visits.
       Maintenance of a schedule of planned and actual site visit dates.

Further, during the incurred cost audit we found the following additional internal control
deficiencies:

        The Commission did not have procedures in place to ensure subgrantees'
        Financial Status Reports (FSRs) are being created through the Web Based
        Reporting System (WBRS) on a timely basis.
        The Commission did not document on the records review checklist which vendors
        were reviewed during the site visit, to ensure that subgrantees were not disbursing


  OIG Report 00-17; Pre-Audit Survey of the Missouri Community Service Commission was issued March
28, 2000.
       Federal funds to suspended or debarred parties. Although the Commission
       reviews a certification from each subgrantee stating that they do not purchase
       from suspended or debarred parties, specific documentation to support this
       certification is not reviewed during the records review site visit.
       The Commission provided its subgrantee, American Youth Foundation, funding
       for a Promise Fellows grant for the 1999-2000 grant year without formally
       entering into a grant or cooperative agreement.

We recommend that MCSC continue to place emphasis on the effective implementation
of its recently developed comprehensive set of policies and procedures for all grants
received from the Corporation. Such emphasis will help to ensure that day-to-day
procedures are performed accurately and consistently, thus minimizing the risk of
Corporation funds being improperly disbursed. Additionally, the Commission should
sign a formal cooperative agreement with all subgrantees for each year that funding is
received from the Commission.

We also recommend the Corporation follow up with the Commission to ensure adequate
corrective action is taken on the unresolved pre-audit survey conditions and on the
additional matters discussed above.

REPORT ON COMPLIANCE

The results of our tests of compliance disclosed instances of noncompliance and related
questioned costs as reflected in Exhibits A through C, for which the ultimate resolution
cannot presently be determined. It is the responsibility of the Corporation to determine
whether the questioned costs are allowed or disallowed. Questioned costs identified were
developed using either actual costs (in those instances that actual costs were provided by
the Commission and its subgrantees) or estimated costs (in those instances that actual
costs were not readily available).

AmeriCorps Grant

A. Complhnce Findings Resulting in Questioned Costs

The specific amounts questioned related to the findings discussed below are included in
the Schedules of Award Costs by subgrantee at Exhibit D-1 through D-13, and in the
Summary of Questioned Costs included as Note 2 to the Consolidated Schedule of Award
Costs. This Note reconciles the amounts identified as questioned costs in the following
paragraphs to the consolidated amounts of questioned costs reflected in Exhibit A.

1. Lack of adequate financial records for the Commission's sub-grants to the Grace Hill
   Neighborhood Services, Inc. and Youthnet of Greater Kansas City (Questioned
   Claimed Costs of $l,ZOP,5I8,Questioned Match Amounts of $703,363,and
   Questioned Education Awards of $363,218).
AmeriCorps General Provisions state that subgrantees must maintain adequate supporting
documents for every expenditure (Federal and Non-Federal) and in-lund contributions
made under this grant. Costs must be shown in books or records (e.g., a disbursement
ledger or journal), and must be supported by a source document, such as a receipt, travel
voucher, invoice, bill, in-kind voucher, or similar document.

Grace Hill Neighborhood Services, Inc. did not provide us general ledgers for either
1994-95 or 1995-96 program years. In addition, supporting documentation such as
invoices, payment information, and timesheets for the 1994-95 and the 1995-96 program
years were not available for audit. Therefore, we were unable to verify the propriety of
the claimed and matching costs. As a result of the foregoing, all claimed costs of
$535,887 and related matching costs of $352,995 for these two program years are
questioned.

In addition, Grace Hill Neighborhood Services, Inc was unable to provide any payroll
registers for program year 1996-97 or staff payroll registers for program year 1997-98.
Therefore, we were unable to test the propriety of living allowance amounts paid to
members in 1996-97 and staff salaries allocated to the grant during either the 1996-97
and 1997-98 program years. As such, the total amount of claimed member support costs
reimbursed for program year 1996-97 for $130,033 and match of $3 1,626 and total staff
salary costs reimbursed for program years 1996-97 and 1997-98 of $1 19,870 are also
questioned.

Youthnet of Greater Kansas City entered into subgrantee relationships in program years
1994-95, 1995-96, and 1996-97 with other not-for-profit organizations (Don Bosco
Community Center and Della Lamb Community Services) for the management and
administration of its AmeriCorps program. Both Don Bosco Community Center and
Della Lamb Community Services submitted their AmeriCorps member support costs to
Youthnet of Greater Kansas City for reimbursement. Youthnet of Greater Kansas City
accumulated these costs and expenses, along with other expenses incurred by Youthnet of
Greater Kansas City, and submitted a consolidated reimbursement request to the
Commission.

According to the Special Provisions of the AmeriCorps guidelines, the grantee must
obtain prior written approval of the Corporation before entering into sub-grants or
contracting out any AmeriCorps program activities funded by the grant and not
specifically identified in the approved application and grant. However, Youthnet could
not provide any documents indicating receipt of prior approval from the Corporation to
enter into the above subgrantee arrangements. Similarly, no support exists to indicate
that Youthnet obtained prior written approval from the Commission before entering into
its subgrantee relationships. Youthnet was not awarded the AmeriCorps program for the
1998-99 and subsequent program years as a result of such noncompliance issues.

Youthnet of Greater Kansas City also did not provide a complete general ledger that
agreed to the expenses reported to the Commission and reimbursed by the Commission
for the various program years. Therefore, we were unable to audit the program's
expenditures or match.

Youthnet of Greater Kansas City did provide payroll registers for the period from
November 14, 1994 through December 20, 1996, but these registers did not contain all
the members who served in the AmeriCorps program during the various years under
audit. The registers subsequent to December 20, 1996 were not available for review. In
addition, the employees of Youthnet of Greater Kansas City did not prepare or maintain
timesheets for the number of hours or the program on which they worked. Therefore, we
were unable to test member and staff payroll costs for all program years. As a result of
the foregoing, all reimbursed and matching program operating costs for Youthnet of
Greater Kansas City amounting to $1,223,387 are questioned for all program years.

2. Lack of documentation

           Eligibility requirements were not met (Questioned Claimed Costs of
           $5,578,726, Questioned Match Amounts of $1,333,528, and Questioned
           Education Awards of $2,650,746).

The following subgrantees failed to maintain sufficient documentation to verify that
members met eligibility requirements. AmeriCorps Special Provisions state, in part, that
"the Grantee must maintain verifiable records which document each member's eligibility
to serve based upon citizenship or lawful permanent residency, birth date, level of
educational attainment, date of high school diploma or equivalent certificate (if
attained)."

 Subgrantee                              Member Files       Applicable program
                                         Lacking            years
                                         Documentation
                                         /Sample Size
 Lacking Documentation For: Member file
 Youthnet of Greater Kansas Citv       1 13 of 33          1 94-95
 Southeast Missouri State University *   2 of 30            94-95; 96-97

  Lacking Documentation For: Citizenship or lawful permanent residency
  American Youth Foundation *            1 80 of 80     1 94-95 through 98-99
I Southeast Missouri State University * 1 30 of 30      1 94-95 through 97-98
  United Way of the Ozarks  *            1 28 of 28       96-97through 99-00
  YMCA of Greater Kansas Citv *          1 25 of 25       95-96: 96-97: 97-98; 98-99       i

  St. Joseph Youth Alliance *              20 of 20       94-95 through 96-97
  Youthnet of Greater Kansas City          20 of 33       94-95 through 96-97
  Urban League of Kansas City              10 of 10       97-98
  University of Missouri - Kansas City * 10 of 10         97-98; 98-99
  Grace Hill Neighborhood Services         9 of 27        94-95 throueh 97-98
  Lincoln University *                     9of9           95-96; 96-97
  Universitv of Missouri - Rolla *         9of9           97-98
    Della Lamb Community Services                6 o f 10           97-98; 98-99
    Republic RIII School District                1 of 17            98-99

    Lacking Documentation For: High school diploma or equivalent certificate
    University of Missouri - Kansas City * 1 9 of 10     1 97-98; 98-99
    Grace ~ i iNeighborhood
                l             Services -     5 of 27        94-95
    Youthnet of Greater Kansas City          4 of 33                          -
                                                            94-95 through 96-97
1                                                                                             1
                                             I                  I

    Della Lamb Cornrnunitv Services        13of10         1 98-99
    YMCA of Greater Kansas City              1 of 25        98-99
    University of Missouri - Rolla           1 of9          97-98
                                             ,                  I

    Lacking Documentation For: Proof of age
    Della Lamb Community Services       13of10                  1 97-98; 98-99
    * Because of the significant number of exceptions noted we have questioned all member
    costs incurred for these subgrantees and all related Education Awards issued by the
    Corporation.

    The Urban League of Kansas City also failed to provide the member support cost match
    required by AmeriCorps Provisions. As the Commission is cognizant of this issue and
    has not reimbursed the subgrantee for all claimed amounts, we questioned the total
    member support costs requested for reimbursement for which the Corporation has
    provided funding to the Commission less the calculated match amount. We also
    questioned all related Education Awards awarded by the Corporation for the program
    year because of the number of exceptions found in our testing.

               Documentation to support time and attendance records and proper
               authorization of timesheets was not evident (Questioned Claimed Costs of
               $25,420).

    AmeriCorps Special Provisions state, in part, that "time and attendance records must be
    signed by both the member and by an individual with oversight responsibilities for the
    member." AmeriCorps General Provisions require, in part, that any staff salaries and
    wages charged directly to a Grant or charged to matching funds must be supported by a
    signed time and attendance report for each individual employee regardless of position.
    The member or employee's signature represents acknowledgement that the hours
    reported reflect an accurate depiction of the hours served for the program. A supervisor's
    signature indicates approval and concurrence of the hours recorded by the
    memberlemployee.

    All University of Missouri - Kansas City employees with 100% or a lesser percentage of
    their salarieslbenefits allocated to the AmeriCorps program (either as match or as a
    Federal expenditure reimbursed by the Commission) did not complete time and
    attendance records (e.g., timesheets). As a result, all salaries and benefits reimbursed as
    part of the AmeriCorps program are questioned.
    The subgrantees listed below could not locate member, or staff timesheets for selected
    pay periods, or timesheets for selected pay periods were not signed by the individual or
    an authorizing official.

    Subgrantee                             I Lacking            I Applicable program           1
                                      Documentation1 years
                                      Sample Size
    Lacking Documentation For: MemberIStaff Timesheets for Selected Pay Period(s)
    St. Joseph Youth Alliance       1 21 of 36          1 94-95 through 96-97
                                                         / 98-99: 99-00
                                           I

    United ~ a ofvthe Ozarks        1 5 of 28
    Urban League of Kansas City       2 of 10              97-98
    Lincoln University                1 of4                95-96

    Lacking Documentation For: Approved MemberIStaff Timesheets
                                      A



    United ~ a ofvthe Ozarks         1 17 of 69        1 96-97: 98-99: 99-00
    St. Joseph Louth Alliance          10 of 20          94-95 through 96-97
    American Youth Foundation          8 of 104          94-95: 95-96: 99-00
1   YMCA of Greater Kansas City
                                     I

                                     1 7 of 25
                                                       I
                                                       1 95-96; 96-97
    3. General ledger andor payroll records were not maintained (Questioned Claimed
       Costs of $904,309).

    AmeriCorps General Provisions state that subgrantees must maintain adequate supporting
    documents for every expenditure (Federal and Non-Federal) and in-kind contributions
    made under this Grant. Costs must be shown in books or records (e.g., a disbursement
    ledger or journal), and must be supported by a source document, such as a receipt, travel
    voucher, invoice, bill, in-kind voucher, or similar document.

    Subgrantees must also maintain financial management systems that include standard
    accounting practices, sufficient internal controls, a clear audit trail and written cost
    allocation procedures as necessary. Financial management systems must be capable of
    distinguishing expenditures attributable to a grant from expenditures not attributable to a
    grant. This system must be able to identify costs by programmatic year and by budget
    category and to differentiate between direct and indirect costs or administrative costs.
    Financial management responsibilities for not-for-profit organizations are detailed further
    in OMB Circular A- 110, Uniform Administrative Requirements for Grants and
    Agreements with Institutions of Higher Education, Hospitals, and Other Non-Profit
    Organizations, and its implementing regulations.

    The American Youth Foundation
    The American Youth Foundation did not maintain general ledgers for the 1995-96 and
    1996-97 program years or automated payroll records for the 1994-95 program year.
    Therefore, we were unable to test staff salaries and benefits for the 1994-95, 1995-96 and
    1996-97 program years, and such costs claimed for these program years are questioned.
The YMCA of Greater Kansas City
The YMCA was unable to provide adequate payroll reports for all four members selected
from the 1995-96 program year and all eight members selected from the 1996-97
program year. Therefore we were unable to determine the propriety of the living
allowances paid and deductions made from the allowances for those members selected
for review. All member support costs reimbursed and matched for these program years
were questioned for noncompliance with eligibility requirements; therefore, no additional
questioned costs are identified with this finding.

For its program year 1995-96 Blue Hills Together AmeriCorps program, the YMCA was
unable to provide an accounting ledger, worksheet or any other report that would enable
us to objectively select a sample of expenditures to test. The YMCA did not maintain
copies of the general ledger or worksheets used to prepare the monthly or quarterly
financial reports, and it changed accounting systems since the reports were prepared.
Therefore, the reports could not be reproduced. However, all program operating costs
claimed for this year have been questioned as a result of the YMCA not meeting
matching requirements (See finding Number 8). Therefore, no additional questioned
costs are identified with this finding.

The Urban League of Kansas City
The salaries and benefits for the Urban League's 1997-98 Operation Break and Build
program, recorded in the general ledger, did not agree to the Monthly Report
Reimbursement Request forms submitted to the Commission. Employee personnel files
that would have provided the necessary information to test salarieshenefits charged to
the AmeriCorps program (e.g., salaried employees, hourly pay rates, various
withholdings, fringe benefits, etc.) were not available. In addition, we were unable to test
Urban League staff salarieshenefits charged to the grant as current Urban League staff
could not provide support to justify how the time contributed by the employees was
allocated between the AmeriCorps grants and other Urban League programs. Therefore,
the total amount of the staff salaries and benefits for the program year that was submitted
for reimbursement is questioned.

St. Joseph Youth Alliance
For St. Joseph Youth Alliance, supporting documentation was not provided for all seven
members selected from 1994-1995 and all five selected from 1995-1996 to verify that the
Corporation's share of the living allowance for full-time members did not exceed 85% of
the minimum living allowance or 85% on the prorated living allowance for part-time
members. Additionally the lack of supporting documentation precluded us from
verifying that the living allowance was paid in increments and not based on the number
of hours of service in a given time period or that the entity paid its share of FICA on the
living allowances paid to members.
4. Documentation to support AmeriCorps members' terms of service was not maintained
   (Questioned claimed costs of $24,595, Questioned ~ a t c Amount
                                                            h      of $4,340, and
   Questioned Education Awards of $3,444).

The following subgrantees failed to maintain required documentation, such as member
timesheets/payroll reports, to support that the term of member service was properly
completed to justify member Education Awards.

AmeriCorps Special Provisions require, in part, that each program must maintain records
to verify that the member successfully completed the program requirements with a
minimum of 1,700 hours of participation as a full-time member, 900 hours of
participation as a part-time member, or 300-900 hours of participation as a reduced part-
time member.

Subgrantee                             Member Files     Applicable program
                                       Lacking          years
                                       Documentation1
                                       S a m ~ l Size
                                                 e
Lacking Documentation For: Service Hour Requirements
Southeast Missouri State University    10 of 30       1 94-95; 95-96; 97-98
Della Lamb Cornrnunitv Services        10 of 10       1 97-98: 98-99
University of Missouri - Kansas City ( 2 of 10        1 98-99
Due to noncompliance with eligibility requirements, we questioned all member support
costs for all program years for Southeast Missouri State University and the University of
Missouri - Kansas City and member support cost for seven of the ten Della Lamb
Community Services members tested. The remaining three Della Lamb Community
Services members' support costs are questioned for not meeting service hour
requirements.

    5. General ledger detail did not agree to Monthly Reimbursement Requests
       (Questioned Claimed Costs of $79,121 and Questioned Match Amounts of
       $147,770).

We were not able to reconcile the salaries and benefits recorded on the program year
1997-98 and 1998-99 general ledgers for Della Lamb Community Services employees to
the monthly report reimbursement requests. We were also unable to reconcile the
operating costs, other member support costs, and administrative costs reported on the
monthly report reimbursement request to the general ledger for the same program years.
Due to the foregoing, all Federal expenditures claimed for program operations are
questioned for both program years.

In addition, we could not test various matching expenditures for the 1997-98 and the
1998-99 program years as the general ledgers for these two periods did not specifically
    indicate whether an expenditure was a Federal or non-Federal (e.g. matching)
    expenditure. Therefore, all matching costs for the two program years are questioned.

    AmeriCorps General Provisions state that subgrantees must maintain adequate supporting
    documents for every expenditure (Federal and Non-Federal) and in-kmd contributions
    made under this grant. Costs must be shown in books or records (e.g. a disbursement
    ledger or journal) and must be supported by a source document, such as a receipt, travel
    voucher, invoice, bill, in-kind voucher, or similar document.

       6. Documentation to support selected payments claimed under the subgrants was not
          maintained (Questioned Claimed Cost of $47,862).

    The following subgrantees were unable to provide documentation that supported the
    existence andor reasonableness of selected payments claimed for reimbursement from
    the Commission.

  Grace Hill Neighborhood Services
1 Category of Cost I Pavee                             I   Amount I         Program Year         I
  Supplies             Mississippi Industries                  $276             97-98
  Su~~lies             Schnucks                                 194             97-98
I General Support I unknown                                   4,684 1           96-97

    American Youth Foundation
    Category of Cost    Payee                              Amount           Program Year
    Part time travel    Tiger Express                        $2,000             94-95
    Vehicle             Stream                                1,080             94-95
    leaselpurchase

    YMCA o f Greater Kansas Citv
    Category of Cost     Payee                             Amount            Program Year
    Operating            Oretha's Creations                   $350          96-97 (Blue fills)
    Operating              Shirtstop                           3 13         96-97 (Blue Hills)
    Operating               V. Robinson & Co.                  500          96-97 (Blue Hills)
    Operating               Mississippi Ind. for the           550          96-97 (Blue Hills)
I                         I Blind                      I                I                            I
    Operating               Univ. of MO - KC                      342       96-97 (Blue Hills)
    Operating               Journal Entry                       1,511       96-97 (Blue Hills)

  Urban Leaaue o f Kansas Citv
  Category of Cost       Payee                             Amount           Program Year         I
  Lodging and Meals      Hotel Deville                        $325              97-98
  Out of town travel     Avis                                   180             97-98
[ Telephone            ( SW Bell                              1,435 /           97-98
    Lincoln Universitv
     Category of Cost                  Payee                   Amount         Program Year
    Supplies                  M. Hoffman                          $932            95-96

  University of Missouri - Kansas City
   Category of Cost                Payee                       Amount         Program year
  Supplies/services      St. Lukes Hospital                        $890           97-98
  Print reproduction     Print charges-Feb                          103           98-99
I costs                                                                                      I
    Republic RIII School District
I    Category of Cost     /             Payee              I   Amount     I   Program Year
    Other Member              Dr. Barbara Martin                   $300           97-98
    support
    Operating Cost            Brad Bohnet                           525           97-98
    Other Member              Barb Norman                           400           97-98
    support
    Other Member              Barb Norman                           400           98-99
    support
    Other Member              Barb Norman                           200           98-99
    support




    Dickson appeal                                 1,378          95-96
    Travel training R. Edwards                       487          95-96
    Supplies K. Birr                             649             95-96
    Airline ticket                               537             95-96
I   Dickson appeal                               203   1         95-96

    In addition, St. Joseph Youth Alliance did not provide adequate explanatory
    documentation to support a telephone expenditure of $302, a payment to an "Office One
    Super Store" for $444, and a $2,042 reimbursement to the Economic Opportunity
    Corporation. The Alliance also reimbursed the Girl Scouts for the leasing of a van and its
    insurance without obtaining adequate support. We cannot determine that the leased van
    was used solely for AmeriCorps activities. The related amounts included in the
    expenditures selected for review were as follows:

      Program                  Description                  Amount

        94-95        Van Rental
        94-95        Van Rental
        94-95        Van Rental
        94-95        Insurance for van                          1,230
        95-96        Insurance for van                          1,230
        95-96        Van Rental Jan & Feb 96                    1.580
        95-96      1 Van Rental 3/96,4/96,5/96                  2,370 ]

    St. Joseph Youth Alliance also reimbursed the following two subgrantee partners without
    receiving proper documentation for the charges:

I Category of Cost                  Payee                  I Amount I     Program Year
                        Kansas City Regional Council         $1,269          95-96

    Travel              Midland Girl Scouts                     208          95-96


    AmeriCorps General Provisions state that subgrantees must maintain adequate supporting
    documents for every expenditure (Federal and Non-Federal) and in-kind contributions
    made under this grant. Costs must be shown in books or records (e.g. a disbursement
    ledger or journal) and must be supported by a source document, such as a receipt, travel
    voucher, invoice, bill, in-kind voucher, or similar document.

        7. Improper/ineligible payments made (Questioned Claimed Costs of $1 14).

    In the 1997-98 program year, for the Blue Hills Together program, the YMCA of Greater
    Kansas City used the services of a consulting company to perform one-day training
    seminars for $500 each day. Our sample included two expenditures for training
    seminars. According to the Special Provisions of the AmeriCorps guidelines, payments
    to individuals for consultant services under this subgrant may not exceed the daily
    equivalent of the maximum rate ($443 per day as of January 1995) allowed by Federal
law. As the consulting daily rate exceeded the maximum amount allowed by the
AmeriCorps Provisions, the amount in excess of the daily rate is questioned.

According to the Special Provisions of the AmeriCorps guidelines, the subgrantee must
provide a health care policy to those full-time members not otherwise covered by a health
care policy at the time of enrollment into the AmeriCorps program.

One member's insurance form at YMCA during the 1997-98 program year indicated that
he waived participation in the insurance program available through the AmeriCorps
program. However, our review of the insurance roster indicated the individual was listed
as receiving insurance coverage. The program remitted premium payments to the
insurance company on the individual's behalf. The program's administrative error
resulted in erroneous premium payments for this individual's coverage in the insurance
program. The total amount that was remitted during the year is included in the living
allowance that was questioned for noncompliance with eligibility requirements.

   8. Matching requirements were not met (Questioned Claimed Costs of $33,965).

According to the Special Provisions of the AmeriCorps guidelines, the maximum
Corporation share of administrative costs cannot exceed 5% of total Corporation funds
actually expended by the subgrantee. In addition, the subgrantee must provide and
account for the matching funds consistent with the approved application and budget. The
AmeriCorps Special Provisions require, at a minimum, the following aggregate matches:
i) member support costs of 15% - including living allowance, FICA, Unemployment
Insurance, Worker's Compensation and Healthcare; and ii) program operating costs of
33% - including other member costs, staff, operating costs, internal evaluation and
administration.

The corresponding Federal claimed cost percentage was questioned for the following
subgrantees that did not meet matching requirements.

The American Youth Foundation
The Education Program Administration costs claimed for the American Youth
Foundation exceeded 5% of the total Federal grant expenditures for the 1997-98 program
year. The actual costs charged were 5.75%, which is 0.75% over the allowed threshold.
The excess amount questioned is $2,7 11.

Youthnet of Greater Kansas City
Youthnet exceeded 5% of total Corporation funds expended for administrative costs in
the 1996-97 program year. The actual costs charged were 13.39%, which is 8.39% over
the allowed threshold. The excess amount is $20,922. In addition, for both 1994-95 and
1995-96 program years at Youthnet, due to the unavailability of monthly reimbursement
requests forms, we were unable to test the amount of administrative costs charged to
Corporation funds. In the 1995-96 program year Youthnet did not meet any of the
matching requirements. Youthnet only matched 7.73% of member support costs and
3 1.84% of the program operating costs. However, all operating costs claimed for all
program years were questioned due to the lack of adequate financial records (See Finding
No. 1). Therefore, no additional questioned costs are identified with this finding.

YMCA of Greater Kansas City
In program year 1995-96, the YMCA of Greater Kansas City's Blue Hills program did
not make any program operating matching contributions. Therefore, the program did not
meet the minimum member support matching requirement for the year. As a result, the
total amount of program operating costs claimed in 1995-96 is questioned.

Lincoln University
In 1996-97 Lincoln University did not meet the member support matching requirements.
Lincoln University's match was 14.73% of total member support costs. The total
member support costs were $6 1,368 of which the Corporation's share exceeded the
maximum required by $166. However, we questioned the entire member support costs
and match due to noncompliance with eligibility requirements. Therefore, no additional
questioned costs are identified with this finding.

United Way of the Ozarks
In the 1996-97 program year, the United Way of the Ozarks did not meet the minimum
threshold of total member support matching costs. The questioned amount of $824 is
included in the member support match that was questioned for noncompliance with
eligibility requirements.

Southeast Missouri State University
Southeast Missouri State University did not meet the member support or program
operating matching requirements in program year 1996-97. The University met 12% of
the member support costs and 25% of the program operating costs. In program year
1997-98, the University did not meet the member support matching requirement. The
University claimed a negative matching amount for -64% of the total member support
costs. All member support costs and matching amounts were questioned due to
noncompliance with eligibility requirements. Therefore, no additional questioned costs
are identified with this finding.

    9. Match amounts claimed are not properly supported (Questioned Match of
       $1,356,276).

The Grace Hill Neighborhood Services, Inc
Grace Hill Neighborhood Services could not provide monthly reimbursement requests or
monthly expense reports for the months of July, August and September of 1998 to
support member and non-member support matching costs reflected in the quarterly FSR.
Grace Hill Neighborhood Services also did not provide monthly reimbursement requests
or monthly expense reports for the 1" quarter; January and February of the 2ndquarter; 4th
quarter; and the 5thquarter of the 1996-97 program year to support member and non-
member support matching costs reflected in the quarterly FSRs. In addition, Grace Hill
Neighborhood Services could not provide source documents such as payroll registers and
other supporting documents for the matching expenditures recorded on monthly
reimbursement requests and monthly expense reports that were provided for the 1996-97
and 1997-98 program years. As we could not determine the propriety of matching costs,
all matching costs for the 1996-97 and 1997-98 program years are questioned.

American Youth Foundation
The American Youth Foundation did not maintain general ledgers for the 1995-96 and
1996-97 program years. Therefore, we were unable to determine the propriety of
matching expenditures claimed for the 1995-96 and 1996-97 program years. Therefore,
all matching expenditures claimed for these two program years are questioned.

In October 2000 when the American Youth Foundation - AmeriCorps program separated
from the American Youth Foundation, Inc., a new software system was purchased and
placed into operation to record non-Federal receipts properly. Therefore, a specific
recommendation for the American Youth Foundation is not considered necessary.

The Urban League of Kansas City
The Urban League of Kansas City general ledger did not capture non-Federal
expenditures (e.g., matching). Urban League also did not maintain supporting
documentation for program operating matching expenditures claimed. Therefore, the
total program operating matching expenditures claimed in the 1997-98 program year are
questioned.

AmeriCorps General Provisions state that subgrantees must maintain adequate supporting
documentation for every expenditure (Federal and Non-Federal) and in-kind
contributions made under this grant. Costs must be shown in books or records (e.g. a
disbursement ledger or journal), and must be supported by a source document, such as a
receipt, travel voucher, invoice, bill, in-kind voucher, or similar document.

B. Other Compliance Findings

    10. Lack of documentation

           Parental consent

Six of 10 members sampled at University of Missouri - Kansas City for program years
1997-98 and 1998-99 required parental consent to be eligible to serve, but sufficient
documentation to support the granting of parental consent was not maintained.
AmeriCorps Special Provisions require that before enrolling in a program, individuals
under 18 years of age must provide written consent from a parent or legal guardian.

           Criminal record check

The following subgrantees enrolled members who required a criminal record check;
however, sufficient documentation to support that a criminal record check was conducted
was not maintained. AmeriCorps Special Provisions require that programs with members
or employees who have substantial contact with children (as defined by state law) or who
perform service in the homes of children or individuals considered vulnerable by the
program shall, to the extent permitted by state and local law, conduct criminal record
checks. The Provisions require that this documentation be maintained within member or
employee files.

Subgrantee                              / Member Files       / Applicable program
                                        II
                                      E:fntation/
                                      Sample Size
                                                      years


Lacking Documentation For: Criminal Background Check
University of Missouri - Kansas City 10 of 10      1 97-98; 98-99
Universitv of Missouri - Rolla        9of9         1 97-98
St. Joseph Youth Alliance             8 of 8          96-97
Della Lamb Community Services         7 of 10         97-98; 98-99
YMCA of Greater Kansas City           4 of 25         96-97; 98-99
Lincoln Universitv                   14of4          1 96-97
American Youth Foundation             3 of 79         96-97; 98-99; 99-00
Southeast Missouri State Universitv   2 of 11         96-97

           Position descriptions

AmeriCorps Special Provisions require that the subgrantee develop member position
descriptions that provide for direct and meaningful service activities and performance
criteria that are appropriate to the skill level of members. Activities may not include
clerical work, research, or fund raising activities unless such activities are incidental to
the member's direct service activities. The subgrantee must ensure that each member has
sufficient opportunity to complete the required number of hours to qualify for a post-
service education award. In planning for the member's term of service, the subgrantee
must account for holidays and other time off, and must provide each member with
sufficient opportunity to make up missed hours.

In the 1996-97 program year for United Way of the Ozarks, one member file reviewed
had a weekly timesheet that included time spent for non-program related activities, a
specific violation of the AmeriCorps Provisions. The member charged hours to the
program for research for hislher own education benefit and not for the program's benefit.
However, all member support costs have been questioned for this subgrantee for
noncompliance with eligibility requirements.

In the 1994-95 program year, Southeast Missouri State University lacked documentation
to support position descriptions for 5 of 30 member files reviewed.
          Member contracts

The following subgrantees failed to maintain documentation to support that members had
signed contracts that included AmeriCorps requirements.

Subgrantee                           Member Files          Applicable program
                                     Lacking               years
                                     Documentation1
                                      I
                                     Sample Size
Lacking Documentation For: Signed Member Contracts
United Way of the Ozarks             15 of 28              96-97; 99-00
Lincoln University                   8 of 9                95-96; 96-97
Della Lamb Community Services        7 of 10               97-98; 98-99
Youthnet of Greater Kansas Citv      7 of 33               94-95 through 96-97
Southeast Missouri State University  3 of 30               94-95
Universitv of Missouri - Kansas Citv 2 of 10               97-98; 98-99
Urban League of Kansas City          1 of 10               97-98
University of Missouri - Rolla       1 of 9                97-98

Lacking Documentation For: Member Contracts That Define All Member
Reauirements
Grace Hill Neighborhood Services 1 10 of 27          94-95; 97-98
Della Lamb Community Services      3 of 10           97-98; 98-99

AmeriCorps Special Provisions require that the subgrantee must ensure that all members
sign contracts that, at a minimum, stipulated the following:

              The minimum number of service hours and other requirements (as
              developed by the program) necessary to successfully complete the term of
              service and to be eligible for the education award;
              Acceptable conduct;
              Prohibited activities;
              Requirements under the Drug-Free Workplace Act (41 U.S.C. 701 et seq.);
              Suspension and termination rules;
              The specific circumstances under which a member may be released for
              cause;
              The position description;
              Grievance procedures; and
              Other program requirements.

           Orientation

The following subgrantees failed to maintain documentation to support that an orientation
was conducted for enrolled members.
    Subgrantee                             I Member Files       I Applicable program
                                        Lacking                      years
                                        Documentationl
                                        Sample Size
    Lacking Documentation For: Orientation
    United Way of the Ozarks            28 of 28                     96-97 through 99-00
    Youthnet of Greater Kansas City     14 of 33                     94-95 through 96-97
    Southeast Missouri State University 11 of 30                     96-97; 97-98

    AmeriCorps Special Provisions require that, consistent with the approved budget, the
    subgrantee must provide members with the training, skills, knowledge and supervision
    necessary to perform the tasks required in their assigned project positions, including
    specific training in a particular field and background information on the community
    served. The subgrantee must conduct an orientation for members and comply with any
    pre-service orientation or training required by the Corporation. This orientation should be
    designed to enhance member security and sensitivity to the community. Orientation
    should cover member rights and responsibilities, including the program's code of
    conduct, prohibited activities, requirements under the Drug-Free Workplace Act (4 1
    U.S.C. 701 et seq.), suspension and termination from service, grievance procedures,
    sexual harassment, other non-discrimination issues, and other topics as necessary.

               Member start and end dates/Location of member's service

    The following subgrantees failed to maintain required documentation on member start
    and end dates, as well as identification of a member's location of service and project
    assignment in certain instances. AmeriCorps Special Provisions require that the
    subgrantee must maintain verifiable records, which document each member's
    participation, start date and end date, hours of service per week, location of service
    activities and project assignment.

    Subgrantee                             Member Files     Applicable program
                                           Lacking          years
                                           Documentationl
                                           Sample Size
    Lacking Documentation For: Member hours of service, location of service and project
    assignment
    Lincoln University                     9 of 9           95-96; 96-97
    Della Lamb Community Services          7 of 10          97-98; 98-99
    University of Missouri - Kansas City 2 of 10            98-99I

I   Grace ~ i iNeighborhood
                l             Services - / 1 of 27        1 97-98

                Mid-term and end-of-term evaluations

    The following subgrantees could not locate mid-term and end-of-term evaluations for
    certain members that were selected for review. AmeriCorps Provisions require that each
subgrantee must conduct at least a mid-term and end-of-term written evaluation of each
member's performance, focusing on such factors as:

   - Whether the member has completed the required number of hours;
   - Whether the member has satisfactorily completed assignments; and
   - Whether the member has met other performance criteria that were clearly
     communicated at the beginning of the term of service.

Subgrantee                            I Member Files   I Applicable program
                                      Lacking             years
                                      Documentation1
                                      Sample Size
Lacking Documentation For: Mid-Term         End-of-Term Evaluations
American Youth Foundation             104 of 104          94-95 through 99-00
Youthnet of Greater Kansas City       20 of 33            94-95 through 96-97
United Way of the Ozarks              15 of 28            96-97; 98-95; 99-00
YMCA of Greater Kansas City           12 of 25            95-96 through 98-99
Urban League of Kansas City           10 of 10            97-98
Della Lamb Community Services         10 of 10            97-98; 98-99
Lincoln University                    9of9
                                      I                 I
                                                          95-96: 96-97
University of Missouri - Rolla       19of9              1 97-98
University of Missouri - Kansas City 3 of 10              98-99
Grace Hill Neighborhood Services      2 of 27             94-95
                                       I                   I
Lacking; Documentation For: Mid-Term or End-of-Term Evaluations
United w a y of the Ozarks            1f;l 28         96-97; 98-99; 99-00
Southeast Missouri State University   6 of 30
                                       I
                                                      94-95; 95-96
                                                           I

YMCA of Greater Kansas City         1 4 of 25       1 95-96;97-98; 98-99
St. Joseph Youth Alliance             3 of 20         96-97
Grace Hill Neighborhood Services      2 of 27         94-95; 95-96

           Enrollment forms, change of status forms, exit/end-of-term-of-serviceforms

The following subgrantees failed to maintain certain standard forms required to be
completed for members, and also failed to adhere to the required timeframe for
submission. AmeriCorps Special Provisions require that the following documents are
required from the grantee:

    - Enrollment Forms. State Commissions and parent organizations must submit
      member enrollment forms to the Corporation no later than 30 days after a member
      is enrolled.
    - Change of Status Forms. State Commissions and parent organizations must
      submit member change of status forms to the Corporation no later than 30 days
      after a member's status is changed. By forwarding member change of status forms
           to the Corporation, State Commissions and parent organizations signal their
           approval of the change.
       -   ExitJEnd-of-Term-of-Sewice Forms. Programs must submit member exitlend-
           of-term-of-service forms to the Corporation no later than 30 days after a member
           exits the program or finishes hislher term of service early

    Subgrantee                           Member Files                  Applicable program
                                         Lacking                       years
                                         Documentation1
                                         Sample Size
    Lacking Documentation For: Enrollment Form
    University of Missouri - Kansas City 9 of 10                       97-98; 98-99
    Lincoln University                   7of9                          95-96; 96-97
    Della Lamb Community Services        4 o f 10                      97-98; 98-99
    YMCA of Greater Kansas City          2 of 25                       97-98
    Urban League of Kansas City          1 of 10                       97-98
    University of Missouri - Rolla       1of9                          97-98
    Youthnet of Greater Kansas City      1 of 33                       95-96
                                          I                    I
    Lacking Documentation For: Timely Submission of Enrollment Form
    St. J o s e ~ hYouth Alliance    1I 5 of20           1I 96-97
I   Della Lamb Community Services     130f10              1 97-98
                                          I                    I
    Lacking Documentation For: ExitIEnd-of-Term Form
    Youthnet of Greater Kansas City      8 of 33                       95-96; 96-97
    Urban League of Kansas City          7 of 10                       97-98
    University of Missouri - Kansas City 5 of 10                       97-98
    Republic MI1 School District         4 of 17                       97-98
    Della Lamb Community Services        4 of 10                       97-98; 98-99
    American Youth Foundation            2 of 104                      95-96; 98-99
    YMCA of Greater Kansas City          2 of 25                       95-96: 98-99
    Grace Hill Neighborhood Services     1 of 27                       96-97
    University of Missouri - Rolla       1 of9                         97-98
    United Way of the Ozarks             1 of 28                       96-97
    Southeast Missouri State University  1 of 30                       96-97
    St. Joseph Youth Alliance            1 of 20                       94-95
                                           I                       I

    Lacking Documentation For: Timely submission of ExitIEnd-of-Term form
    Lincoln University                 6of9               95-96; 96-97
    St. Joseph Youth Alliance          3 of 20            95-96; 96-97
    Della Lamb Community Services      3 of 10            97-98
           Health Insurance Coverage

Urban League of Kansas City
All member files reviewed for Urban League did not include signed waivers of insurance
coverage for full time members, where applicable. In addition, we were unable to locate
documentation verifying health insurance coverage for full time members.

Della Lamb Community Sewices
The four full time members reviewed for Della Lamb also lacked proof of minimum
healthcare benefits or that such benefits were waived.

AmeriCorps Special Provisions require that the subgrantee must provide a health care
policy to those members not otherwise covered by a health care policy at the time of
enrollment into the AmeriCorps program, or to those members who lose coverage during
their term of service as a result of participating in the program or through no deliberate
act of their own.

           Financial Status Reports(FSRs) and Progress Reports

According to the special Provisions of the AmeriCorps guidelines, subgrantees are
required to forward Financial Status ReportsIProgress Reports to the Corporation's
Grants Office 30 days after the close of each calendar quarter.

The following subgrantees did not maintain copies of FSRs or Progress reports, the FSR
or progress report was not dated, or the reports were not submitted timely.

Subgrantee                               I Sample Size
Lacking Documentation For: Financial status report
YMCA of Greater Kansas Citv              14of4
University of Missouri - Kansas City       1of9
Lincoln University                         1of8
                                             I

Lacking Documentation For: Timely Submission of FSR
American Youth Foundation              26 of 50
YMCA of Greater Kansas Citv            10 of 20
Southeast Missouri University          7 of 14
University of Missouri - Kansas City   6 of 9
Della Lamb Community Services          5of8
St. Joseph Youth Alliance              4 of 12
University of Missouri - Rolla         4of4
Youthnet of Greater Kansas Citv        2 of 12
Urban League of Kansas City            1 of 4
Grace Hill Neighborhood Services       l0f8
I   Lacking Documentation For: FSR was not dated
    youthnet of Greater Kansas City         5 of 12
    Grace Hill Neighborhood Services        4of8
    American Youth Foundation               3 of 46
    Della Lamb Community Services           3 of8

    Lacking Documentation For: Progress report
    YMCA of Greater Kansas City              20 of 20
    Southeast Missouri University            14 of 14
    St. Joseph Youth Alliance                12 of 12
    Youthnet of Greater Kansas City          8of8
    Della Lamb Community Services            5 of8
    University of Missouri - Rolla           4of4
    Urban League of Kansas City              4of4
    University of Missouri - Kansas City      1of9
    Grace Hill Neighborhood Services          1 of8

    Lacking Documentation For: Progress report was not dated
    Youthnet of Greater Kansas City         14of4

    Certain subgrantees had a fifth quarter, depending on when the program year ended,
    requiring an additional FSR to be submitted to the Corporation. However, the American
    Youth Foundation did not submit a separate 5th quarter FSR for 8 individual programs in
    1996-97 through 1999-00.

    Della Lamb Community Services did not submit separate FSRs for the calendar quarter
    ending September 30, 1997 and September 30, 1998. Instead, they were included in the
    calendar quarter ending December 30 for each respective year. In addition, the 3rdand 4th
    quarter of the 1998-99 program year was submitted as one Progress Report as opposed to
    two separate reports. This Progress Report was submitted on February 17, 2000, which
    was more than four months after the Commission discontinued funding the program.

    A separate FSR was not submitted by the University of Missouri - Kansas City for the
    calendar quarter ending September 30, 1997. Instead, the July 1997 through December
    1997 financial activity was reported on the December 3 1, 1997 FSR. In addition, the
    December 3 1, 1997, March 3 1, 1998, and June 30, 1998 Progress Reports were submitted
    as one report as opposed to three separate reports.

    All member forms, timesheets, FSRs and progress reports beginning with program year
    1999-2000 for the Commission and subgrantees are required to be submitted via the Web
    Based Reporting System (WBRS). The Commission is required to submit an aggregate
    FSR to the Corporation semiannually. During the follow-up to the recommendations
    made during the Pre-Audit Survey, we noted that Commission did not ensure that
    subgrantees created all quarterly FSRs through WBRS. We identified an instance where
one subgrantee (Guadalupe Centers, Inc) did not create a FSR from 1/1/00 through
12131/00.

        Serni-annual staffcertzjcations

When an employee works solely on a single federal award or cost objective, OMB
Circular A-87 requires that such employees certify to that fact on a semiannual basis. We
noted the following regarding compliance with this reporting requirement:

        Republic RIII School District employees whose salaries and benefits are allocated
        to the Republic Readers Coaches (RRC) and the Republic Pre-School Coaches
        grants are salaried employees who devoted 100% of their time to the AmeriCorps
        programs. However, these Republic RIII employees did not complete semiannual
        certifications indicating they worked 100% of their time on the AmeriCorps
        programs.

    0   All University of Missouri - Kansas City employees with 100% or a percentage
        of their salarieshenefits allocated to the ArneriCorps program did not complete a
        semiannual certification indicating the percentage of time allocated to the
        program.

        All staff members of the Commission are salaried employees who devote 100% of
        their time to AmeriCorps programs. However, Commission employees did not
        complete a semiannual certification indicating they have worked 100% of their
        time on the AmeriCorps programs.

Administration and Program Development and Training (PDAT) Grants

C. Compliance Findings Resulting in Questioned Costs

    11. Matching requirements were not met (Questioned amount of $7,760).

The Commission did not meet the administrative grant matching requirement for the
1994-1995 grant period because, prior to July 1996, no one at the Commission tracked
the administrative matching requirement. The Commission did not meet the matching
requirement by $7,760. In November 1996, the Executive Director wrote a letter to the
Corporation indicating that the Commission performed a thorough review of their records
and had determined that the Commission had not met the administrative matching
requirement for the 1994-95 grant period and requested a waiver for that grant period.
Although the Commission requested a waiver, there has been no formal written response
by the Corporation granting this waiver. No additional follow-up has been performed by
the Commission to obtain the Corporation's approval of its waiver request. We
recommend the Commission follow-up with the Corporation to resolve the
noncompliance with matching requirements for the 1994-1995 grant period.
       Recommendations

Except as otherwise noted, for all compliance findings and questioned costs discussed
above, we recommend the following:

       The Corporation should follow up with the Commission to determine whether the
       questioned amounts should be disallowed and recovered.
       The Commission should provide additional guidance to existing subgrantees on
       record retention and documentation standards for such items as eligibility, time
       sheets, member service hours, AmeriCorps roster updates on member status, and
       other claimed costs submitted for reimbursement and matching costs reported.
       The Commission should establish policies and procedures to ensure that all
       existing subgrantees maintain financial management systems that are capable of
       distinguishing expenditures attributable to grant and non-grant funding, identify
       costs by line item, and differentiate between direct and indirect costs, thus
       maintaining a clearer audit trail.
       The Commission should enhance its policies and procedures for review of
       subgrantee member support and program operating matching requirements to
       ensure compliance.
       The Commission should require existing subgrantees to document and adhere to
       file maintenance procedures that will ensure compliance with AmeriCorps
       Provisions. Procedures should include, where applicable, a checklist for all
       required documentation, a training program for personnel who are responsible for
       maintenance of member files, and a periodic review process where selected
       member files are checked for compliance with documented procedures. The
       Commission should then verify the subgrantee compliance with these file
       maintenance procedures during periodic site visits.

Other Procedures

We inquired of the Commission, and its subgrantees selected for audit, about their
awareness of the Corporation's GPRA goals and whether the Commission had provided
specific information to the subgrantees related to the goals. During our pre-audit survey,
we reviewed the Commission's strategic plan, which was consistent with the
Corporation's strategic plan. However, the Commission staff was not specifically aware
of the GPRA. Present management of several subgrantees that are no longer receiving
AmeiCorps grant funds, was not aware of whether their former counterparts that
managed the AmeriCorps programs were aware of GPRA goals. Of the subgrantees that
are currently receiving AmeriCorps grant funds, the program directors were also not
specifically aware of GPRA. However, the Commission had provided assistance to
these subgrantees in establishing specific and measureable goals prior to funding the
programs administered by these subgrantees.
RESPONSIBILITIES

Management's Responsibility

The Missouri Community Service Commission is responsible for:

       preparing FSRs in accordance with the terms and conditions of its grant awards
       from the Corporation. These reports provide the information that is used to
       prepare the Schedule of Award Costs;

       establishing and maintaining internal controls over financial reporting; and

       complying with laws and regulations, including those related to monitoring of its
       subgrantees.

In fulfilling its responsibilities management's estimates and judgments are required to
assess the expected benefits and related costs of internal control policies.

Auditors ' Responsibility

Our responsibility is to issue our report on the Schedule of Award Costs.

Although our report included a disclaimer of opinion on the Schedule of Award Costs,
we conducted our incurred cost audit in accordance with auditing standards generally
accepted in the United States of America, Government Auditing Standards issued b y the
Comptroller General of the United States, and the Audit Program for Full Scope Incurred
Cost Audit of Corporation Awards with Subrecipients (the Audit Program), issued by the
Corporation's Office of Inspector General. Those standards and the Audit Program
require that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the Schedules of Award Costs
(Exhibits A through C), are free of material misstatement.

An audit includes:

       examining, on a test basis, evidence supporting the amounts and disclosures in the
       Schedules;
       assessing the accounting principles used and significant estimates made by
       management; and
       evaluating the overall presentation of the Schedules of Award Costs.

In planning and performing our incurred cost audit, we considered the Commission's
internal control over financial reporting by obtaining an understanding of the
Commission's internal controls, determining whether these internal controls have been
placed in operation, assessing control risk, and performing tests of controls in order to
determine our auditing procedures for the purpose of expressing our opinion on the
Schedules. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards.

As part of obtaining reasonable assurance about whether the Schedule of Award Costs
are free of material misstatement, we performed tests of the Commission's compliance
with certain provisions of applicable laws, regulations and provisions of the
Corporation's grant agreements, noncompliance with which could have a direct and
material effect on the determination of Schedule amounts. We limited our tests of
compliance to these provisions and did not test compliance with all laws and regulations
applicable to the Commission.

DISTRIBUTION

This report is intended solely for the information and use of the Office of Inspector
General and management of the Corporation for National and Community Service, the
management of the Missouri Community Service Commission, and the United States
Congress and is not intended to be and should not be used by anyone other than these
specified parties.




September 25,2001
                                                                                     Exhibit D-1


                     Missouri Community Service Commission
                       Grace Hill Neighborhood Services, Inc.
                             Schedule of Award Costs
                     From August 1,1994 to December 31,1998


                                     Approved           Claimed           Questioned
Cost Category                         Budget             Costs              Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
 Evaluation
Administration
Child Care
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS




 Claimed Costs for "Other Member Support Costs" Category appears greater than the approved budget
amounts as the breakdown of actual Other Member Support costs, Staff, Operating, Evaluation, and
Administration costs for the 1994-95 and 1995-96 program years were not available.
                                                                                             Exhibit D-2


                           Missouri Community Service Commission
                                 American Youth Foundation
                                  Schedule of Award Costs
                         From September 1,1994 to December 31,2000



                                         Approved              Claimed              Questioned
Cost Category                             Budget                Costs                 Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS




  In program years 1994-95 and 1995-96, American Youth Foundation did not break out the staff salaries
and benefits expenditures. As such, the total program operating costs for those years have been included in
the questioned amount as opposed to salaries and benefits, which is the actual questioned amount.
                                                                       Exhibit D-3


                       Missouri Community Service Commission
                            YMCA of Greater Kansas City
                              Schedule of Award Costs
                      From January 1,1996 to December 31,1999


                                     Approved         Claimed   Questioned
Cost Category                         Budget           Costs      Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                 Exhibit D-4


                     Missouri Community Service Commission
                          Urban League of Kansas City
                            Schedule of Award Costs
                   From September 1,1997 to December 31,1998



                                    Approved        Claimed    Questioned
Cost Category                        Budget          Costs       Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                        Exhibit D-5


                  Missouri Community Service Commission
                             Lincoln University
                         Schedule of Award Costs
                 From October 1,1995 to December 31,1997


                               Approved        Claimed     Questioned
Cost Category                   Budget          Costs        Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                      Exhibit D-6



                       Missouri Community Service Commission
                                                 -
                            University of Missouri Rolla
                              Schedule of Award Costs
                      From October 1,1997 to December 31,1998



                                      Approved         Claimed   Questioned
Cost Category                          Budget           Costs      Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
 Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                                 Exhibit D-7


                      Missouri Community Service Commission
                          Youthnet of Greater Kansas City
                             Schedule of Award Costs
                      From August 1,1994 to September 30,1997



                                    Approved             Claimed         Questioned
Cost Category                        Budget               Costs            Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Child Care
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS




       * For the 1995-96 and 1994-95 program years the breakout of Program Operating Costs
       was not available. Thus, all Program Operating Costs of $280,338 for the 1995-96
       program year and $38,052 for the 1994-95 program year are included in the Other
       Member Support Costs line item.
                                                                      Exhibit D-8

                          Missouri Community Service Commission
                                 United Way of the Ozarks
                                 Schedule of Award Costs
                           From July 1,1996 to December 31,2000




                                        Approved           Claimed   Questioned
Cost Category                            Budget             Costs      Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                           Exhibit D-9


                   Missouri Community Service Commission
                      Southeast Missouri State University
                          Schedule of Award Costs
                 From September 1,1994 to September 30,1998


                               Approved          Claimed      Questioned
Cost Category                   Budget            Costs         Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                      Exhibit D-10


                      Missouri Community Service Commission
                                            -
                         University of Missouri Kansas City
                             Schedule of Award Costs
                    From September 1,1997 to December 31,1999




                                    Approved          Claimed   Questioned
Cost Category                        Budget            Costs      Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                       Exhibit D-11


                            Missouri Community Service Commission
                                  Republic Rlll School District
                                   Schedule of Award Costs
                          From September 1,1997 to December 31,2000



                                          Approved           Claimed   Questioned
Cost Category                              Budget             Costs      Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                                         Exhibit D-12


                          Missouri Community Service Commission
                                 St. Joseph Youth Alliance
                                 Schedule of Award Costs
                          From August 1,1994 to December 31,1997


                                     Approved                Claimed              Questioned
Cost Category                        Budget *                 Costs                 Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS




Comments:

* There was no budget or actual information available to prepare a lead schedule for the 1994-95 or 1995-96
program years. The budget amounts are only for the 1996-97 program year. Actual amounts were taken
from a spreadsheet prepared at the Missouri Commission.
                                                                      Exhibit D-13


                            Missouri Community Service Commission
                                Della Lamb Community Services
                                   Schedule of Award Costs
                          From September 1,1997 to December 31,1999



                                          Approved          Claimed   Questioned
Cost Category                              Budget            Costs      Costs

Corporation Funds
Member Support
Other Member Support Costs
Staff
Operating
Evaluation
Administration
Total Corporation Funds

Matching Funds
Member Support Match
Program Operating Match
Total Matching Funds

TOTAL FUNDS
                                                                                   Exhibit E


                    Status of Findings from the Pre-Audit Survey
                   of the Missouri Community Service Commission
                           OIG Audit Report Number 00-17

Selecting Subgrantees

Assessment of Applicants ' Financial Systems during the Selection Process

Selection officials do not consider the adequacy of the applicants' financial systems
during the Commission's subgrantee selection process.

Lack of Formal Conflict of Interest Statements

Although the Commission staff distributes relevant conflict of interest guidance to
selection officials, the Commission does not have policies and procedures that require
these officials to annually sign conflict of interest statements certifying that they have no
conflicts.

Recommendations

We recommended the Commission:
w Require applicants to provide information related to their financial systems, and
  review this information during the subgrantee selection process. The review should
  focus on assessing whether the financial systems, as described, would provide
  reasonable assurance that applicants will be able to properly account for grant funds
  and comply with related grant requirements.
  Develop and implement procedures that require selection officials to sign conflict of
  interest statements annually after discussion of related issues with Commission staff
  and review of written guidance.

Status

The Commission developed a financial management survey to be disseminated to all new
applicants beginning in program year 2000-2001. The survey responses are used to
assess the ability of the applicant organization to comply with federal regulations. Our
follow-up testwork over the pre-audit survey findings indicated that the Commission is
now assessing the applicant's financial systems during the subgrantee selection process.

The Commission has also implemented procedures that require selection officials to sign
conflict of interest statements annually beginning in program year 2000-2001. Our
follow-up testwork over the pre-audit survey findings indicated that the Commission is
obtaining conflict of interest statements from selection officials.
                                                                              Exhibit E

Administering Grant Funds

Lack of Review of Matching and Earmarking Requirements

During the 1997-98 program year, one of two subgrantees tested did not include evidence
of its matching funds on its monthly report/reimbursement request to the Commission,
and Commission personnel did not follow up timely with the subgrantees to obtain the
missing information. The other subgrantee tested for the same year, utilized greater than
5% of its federal funds for administrative purposes, which did not comply with program
requirements.

Timeliness of Receipt of Financial Status Reports (FSR)

The Commission does not date stamp FSRs from the subgrantees as they are received.
Many of the FSRs appeared to have been received later than the 2othday following the
end of the quarter, but the only evidence of when they were submitted is the date
associated with the Program Director's signature. Therefore, the Commission does not
routinely verify if these documents are submitted timely in compliance with the grant
agreement. In program year 1999-2000, the Commission began utilizing the Web Based
Reporting System, which electronically records the date the subgrantees submit their
FSRs to the Commission. As a result, no recommendation was given related to date
stamping FSRs.

Missing FSRs, Supporting Documentation for Expenditures and Programmatic Progress
Reports

Some of the FSRs for the 1995-96 program year from the two subgrantees we tested
could not be located by the Commission staff. Additionally, the Commission had not
obtained the last four FSRs due from another subgrantee during program years 1997-98
and 1998-99. In addition to the FSRs, the Commission requires the subgrantees to
submit, at least on a quarterly basis, a detailed expenditure listing to support program
and matching expenditures. However, Commission personnel did not enforce this
requirement during the 1998-99 program year and did not follow up with subgrantees at a
later date to obtain this documentation. We also noted during our testing that several
subgrantees failed to submit program progress reports.

Noncompliance with the Suspension and Debarment Compliance Requirement

The Commission did not have procedures in place to ensure that its subgrantees have not
been suspended or debarred by the Federal government as required by the Office of
Management and Budget (OMB) Circular A-133 Compliance Supplement, nor did it
monitor whether its subgrantees have procedures in place to ensure that organizations
with which they conduct business have not been suspended or debarred by the Federal
government.
                                                                             Exhibit E


Recommendations

We recommended the Commission:
  Develop an improved process for the timely and comprehensive review of monthly
  reports submitted by subgrantees. Consider developing a checklist to be used by the
  reviewer to provide reasonable assurance that all required information has been
  reported and verified for compliance with grant agreements. The completed checklist
  could then be submitted to a second person for review and approval. Such a
  procedure would enhance the review and monitoring procedures associated with
  matching funds and earmarking information, and serve as a reminder for
  communicating instances of noncompliance to subgrantees as soon as they are
  identified, and for following-up to ensure corrective action has been taken.
  Develop and implement formal procedures to withhold payments to subgrantees when
  they fail to submit required information and reports by the specified deadlines.
   Additionally, when the Commission received the subgrantees' supporting
   documentation related to program and matching expenditures, this documentation
   should be reviewed and agreed to the subgrantees' FSRs and monthly
   reporth-eimbursementrequests before the Commission disburses funds to the
   subgrantees. Finally, the Commission should continue to emphasize, during training
   sessions and site visits, the importance of submitting the required information and
   reports timely.
   Include in the subgrantee application materials a suspension and debarment
   certification to be signed by a representative of the subgrantee certifying that the
   subgrantee has not been suspended or debarred by the Federal government.
   Additionally, during training sessions provided to subgrantees, the suspension and
   debarment compliance requirement should be thoroughly discussed, and during site
   visits, Commission personnel should verify related procedures have been put in place.

Status

Beginning with the 1999-2000 grant period, the Commission started using the WBRS
system. The WBRS system replaced nearly all paper forms and reports previously
submitted to the Corporation. WBRS has been used by the Commission to increase desk
top monitoring in the areas of matching requirements, member progress towards
completion of required hours, program progress towards completion of objectives, timely
submission of reports, etc. In order for the subgrantees to receive reimbursement for
grant expenditures that are incurred, each subgrantee must first access the WBRS system
and complete a monthly Periodic Expense Report (PER). The PER also addresses
matchinglear marking requirements. After the PER is completed via the WBRS system,
the related expenditure supporting documentation is forwarded to the Commission. The
Commission reconciles the information reported on the PER to the supporting
documentation prior to approving the expenditures for reimbursement.

In April of 2000 the Commission developed a grant reimbursement review and approval
form to analyze subgrantee reimbursement claims. This form lists matching requirements
and required documents (Member forms and progress reports) that should be submitted
                                                                               Exhibit E


by the subgrantees before claims for reimbursements are approved. This form is
completed by the Commission for each subgrantee on a monthly basis. If the subgrantee
does not complete a WBRS-PER, they are not reimbursed for any expenditures incurred
for the AmeriCorps program. Through WBRS, the Commission can also identify the
subgrantees that have failed to submit quarterly FSRs. However, our follow-up testwork
during the audit indicated that 1 of 3 subgrantees reviewed from the 1999-2000 program
year had not completed quarterly FSRs for the entire 2000 program year in the WBRS
system. As the grant reimbursement review and approval form does not include a step to
ensure that FSRs are created within WBRS timely, subgrantees may receive
reimbursement without complying with FSR reporting requirements.

Beginning in program year 2000-2001, the Commission required applicants to certify that
they meet the suspension and debarment compliance requirement. However, our review
of documentation related to the Commission's subgrantee record review site visits
indicated that the Commission did not review for evidence that the subgrantee vendors
met the suspension and debarment compliance requirement.

Evaluating and Monitoring Subgrantees

Review of Subgrantees ' Financial Systems and Expense Documentation During Site
Visits

Commission personnel did not review the subgrantees' financial systems and expense
documentation during site visits.

Maintenance of Supporting Documentation and Documentation of Records Obtained and
Reviewed During Site Visits

The Commission utilizes surveys in conducting its member site visits, and a
comprehensive checklist of all AmeriCorps grant provisions in conducting the records
review site visits. However, the member surveys are not maintained, which would prove
problematic if members claim they informed the Commission of an issue in a survey and
the original survey is not available to the Commission for review. Additionally, while the
record review site visit checklist is maintained, it does not identify what documents the
reviewer tested.

Review of OMB Circular A-133 Reports or Other Audit Reports from Subgrantees

As part of the Commission's monitoring process, the Commission does not consistently
require its subgrantees to submit OMB Circular A-133 or other audit reports, if
applicable, and the Commission does not routinely review any such reports to determine
if auditors have identified control weaknesses or instances of noncompliance related to
the AmeriCorps program.

Written Policies and Procedures Related ro Follow-up on Deficiencies Noted at
Subgrantees.
                                                                                 Exhibit E



The Commission does not have written policies and procedures to ensure that subgrantees
correct deficiencies identified by the Commission. The Commission does specify in the
memorandum issued to the subgrantee what deficiencies must be corrected and when its
response to the Commission is due, but the Commission has not been adequately
following up on noted deficiencies.

Schedule of Planned and Actual Site Visit Dates

The Commission's policies require three site visits during the 15 month grant period.
The Commission maintains a schedule of planned dates for site visits for the upcoming
six weeks on a chalkboard; however, no comprehensive schedule for the grant period
exists. An increase in the number of subgrantees and a lack of a comprehensive schedule
of site visits has strained the Commission's resources for consistently performing all
three site visits for each subgrantee. In addition, the site visits completed are sometimes
not performed within the specified timeframes, and feedback to subgrantees is not always
provided on a timely basis.

Recommendations

We recommended the Commission:
   Develop and implement procedures to review the subgrantees' financial systems and
   expense documentation during site visits. The Commission should consider tailoring
   the financial management survey included in the Corporation's A Reference Manual
  for Commission Executive Directors and Members (pages 5-34) for use during site
   visits in assessing subgrantees' financial systems.
   Develop and implement procedures to maintain member surveys obtained during the
   member site visit and documentation of specific records reviewed, in the site visit file
   for each subgrantee.
   Require subgrantees to submit OMB Circular A-133 or other audit reports once the
   final reports are issued, where applicable. The Commission should review these
   reports, determine if corrective action relevant to the AmeriCorps grant is needed, and
   develop procedures to ensure necessary corrective action occurs timely and
   adequately addresses the issues.
   Develop and implement formal policies and procedures to ensure specific, timely
   follow up is made and adequate corrective actions are taken when deficiencies are
   noted by the Commission during site visits.
   Maintain a clear, concise schedule of site visits to be performed during the grant
   period and a record of when site visits are performed. The Executive Director of the
   Commission should monitor the Commission's progress towards completing the
   scheduled site visits. The Commission should reconsider the allocation of its
   resources in light of its staffing situation, the number of subgrantees, and an
   assessment of risk of each subgrantee, to improve the effectiveness of its subgrantee
   evaluation and monitoring procedures. The Commission may also want to revise its
   site visit policy to reduce the number of visits to low risk subgrantees, or contract out
   selected site visits to the Missouri State Auditors' office or others.
                                                                               Exhibit E



Status

The Commission updated the overview, objective, records review, and Member site visits
guidelines in its policies and procedures manual as of April 2000. The revised
procedures include reviewing the subgrantees' financial systems and expense
documentation during site visits. Our follow up testwork during the audit identified no
exceptions related to the Commission's compliance with the new guidelines.

Beginning in MayJJune of 2000, the Commission was to maintain Member surveys.
However, our follow up during the audit indicated that the Commission has not
maintained Member surveys.

Our review of the updated policies and procedures manual also indicated that the
Commission plans to obtain OMB Circular A-133 reports during the records review site
visits. Our follow-up testwork during the audit indicated that the Commission obtains
OMB Circular A-133 reports before or during site visits and follows up or plans to follow
up with identified findings.

As indicated earlier under Administering Grant Funds, the Commission has developed a
grant reimbursement review and approval form that is completed prior to approving
subgrantee expenditure reimbursement. The stated purpose of this process is to ensure
follow up with subgrantees. Our follow up testwork during the audit indicated that the
Commission is following up with subgrantees on identified deficiencies and talung
appropriate corrective measures.

Even though a policy to prepare and follow a schedule of planned site visit dates has been
established, the Commission has not implemented this policy as of the date of our follow
up during this audit.
                                                                                               Appendix A




       Bob Holden
                         GMISSOURI.DEPARTMENT O F ECONOMIC DEVELOPMENT

                                            Joe Maxwell                               Joseph L Driskill
        Governor                      Lieutenant Governor CY Chair                         Director



January 25, 2002

Luise Jordan, lnspector General
Office of the lnspector General
Corporation for National and Community Service
1201 New York Ave. NW
Washington DC 20525



Dear Ms. Jordan:

The Missouri Community Service Commission is pleased to have the opportunity to address the
Draft Report on the Incurred Cost Audit of this Commission by the lnspector General. We have
found this audit to be a useful examination of our systems and procedures with the constructive
goal of improving them such that the Commission i s a more effective steward of Federal monies,
and a more efficient organization overall.

Please find our responses to the Incurred Cost Audit attached.

Sincerely,




Y      ve Director




                       Missouri Community Service Commission
                       Department of Economic Development - Community Development Group
                       770 Truman State Office Building, 301 W High St., PO Box 118, Jefferson City MO 65102
                       Phone 573.751.7488; fax 573.526.0463; l T Y : (800) 735-2966
                       Email: chendric@mail.state.mo.us;homepage www.movolunteers.org
                       Reasonable Accommodations Available ' EOEIADA * Material available in alternate formats
                                      Incurred Cost Audit Response   - Missouri Community Service Commission




General Response
We are pleased that the audit report data clearly indicates the effect of significant improvements made in all
Commission processes over the seven (7) year period covered by this audit. However, we are concerned
with the lack of recognition of these improvements in the findings, most specifically in the Report on
Financial Control Over Program Monitoring. There is clearly an inconsistency between the Status
narrative presented in Exhibit E and the recommendations listed in this section of the report. In addition,
we have specific concerns with the scope of the audit, applicability of regulations and the method used to
calculate questioned costs.

Audit Schedule and Scope
This audit began on January 16,200 1, less than five working days after the Commission was first notified,
via telephone, of the audit's scheduling. Similar or less notice was given in most cases prior to the arrival
of auditors at sub-grantee sites. Because this audit covered a period of seven (7) f i l l years and the records
chosen for review included many long-expired sub-grants, many original records could not be located in
this short time frame. Other records were not available because the retention time had elapsed.

In addition, the scope of the audit as represented to Commission staff during the audit covered as much as
90% of expenditures in some instances. The volume of records required to be produced, combined with a
small amount of prior notification and a 7-year audit period created an undue burden on the Commission
and on the sub-grantees effected by this audit.

Audit Methodology
The Inspector General has, admittedly, used estimates to project the dollar amount for questioned costs.
The use of estimates assumes that a questioned cost on one sub-grant would be present on all sub-grants
when this is not necessarily a true assumption. The net effect is a highly inflated dollar amount in a finding
for what may or may not even be a significant issue. The Commission would like to note general
disagreement with this methodology of projecting questioned costs.

The Inspector General has also failed to recognize the fact that many problems noted in years prior to 1997
are due to lack of records, which were not required to be maintained through the end to this audit period.
The use of estimates and the inclusion of figures for years prior to 1997 make the questioned costs appear
excessively large. The Commission would like to note that this audit methodology, while an accepted audit
practice, does not provide an accurate portrayal of questioned costs.

Records Retention Requirements
Most of the costs questioned cite a lack of documentation, even though Commission sub-grantees are not
required to maintain such documentation beyond three years. AmeriCorps Provisions, section C.26,
Retention of Records states, "The Grantee must retain and make available all financial records, supporting
documentation.. .for 3 years from the date of the final submission of the Financial Status Report.. ." It is
therefore our contention that Federal rules do not require that subgrantees make available documentation
for activities or expenditures incurred prior to December 3 1, 1997 (or prior to the 1997-98 program year).
Such questioned costs drop significantly in 1998 and thereafter. All costs questioned due to lack of
supporting financial records ($2,113,827) are related to periods prior to 12131/97 and should therefore be
eliminated. Examinations by auditors of more recent Commission and subgrantee activities failed to
uncover significant discrepancies.

 Member Eligibility/Documentation Requirements
 A total of $5,578,726 is questioned because the audit says the Corporation failed to provide specific
 guidance to the Commission therefore the Commission was unable to provide this guidance to its
 subgrantees. As clearly indicated in the report, only a very small percentage of these questioned costs are
                                                                   -
                                      !ncurred Cost Audit Response Missouri Commun~tvService Commission


related to periods after July 12, 1999, the date new guidelines were published in the Federal Register which
provide the first such specific guidance on this issue. In some cases, findings have been noted where
supporting documentation was available, but never requested during the course of the audit. Commission
staff presented all immediately available 1999-2000 member files (nearly I00 files total) to auditors on
October 15- 16,200 I. As a result of that meeting, 100% of those files presented were eliminated from the
stated findings. As a result, Commission staff questions the validity of the fieldwork with regard to
member eligibility documentation. A cursory review of the original work papers, by Commission staff
indicates that some costs questioned by this report were never actually tested for in the field. Further,
examination of the work papers should show that original work papers may have been altered by Inspector
General staff conducting the review of the fieldwork. This change was made after fieldwork was complete.

We are confident that the remainder of questioned costs can and will be resolved through follow-up w/ the
Corporation. The recommendations in the audit report will be considered, with any and all appropriate
measures taken to insure these issues are resolved expeditiously. Procedures have been put in place to
minimize the risk of errors or irregularities in internal and monitoring processes.


Specific Response
Material Weaknesses

I.    Grants and Program Management

Audit Recommendation:

We recommend that the Commission take the following actions to improve its grants and program
management processes:

      Review and implement the recently developed policies and procedures to monitor the programmatic
      and financial activity of all subgrantees.
      Ensure adequate attention is given to compliance issues which may not be addressed even if a Single
      Audit in accordance with OMB Circular A-133, Audits of States, Local Governments and Non-proJit
      Organizations, has been performed for any specific subgrantee.
      During site visits, the frequency of which should depend on the level of risk assessed by the
      Commission, ensure that subgrantees are compliant with revised guidance and are adequately
      following up on deficiencies communicated to them by the Commission.
      Although a majority of the subgrants subject to audit have expired as of the date of this report, the
      Commission should ensure that current subgrantees establish procedures by which all invoices are
      approved by an authorized individual prior to payment, and the documentation of such approval is
      maintained with the vendor invoice copy.

Commission Response:

The Commission concurs and has implemented measures to ensure improvement in the procedures and
processes noted above. Many of the new measures and policies have been in place for years and appear to
be effective. Proof of this can be seen in the declining amount of questioned costs in the more current years
of the audit period.

 2.   Financial Management and Reporting

 Audit Recommendation:

 We recommend that the MCSC continue to place emphasis on the effective implementation of its recently
 developed comprehensive set of policies and procedures for all grants received from the Corporation. Such
 emphasis will help to ensure that the day-to-day procedures are performed accurately and consistently, thus
                                     fncurrea Cost Audit Response   - M~ssouriComtnunity Servtce Commission

minimizing the risk of Corporation funds being improperly disbursed. Additionally, the Commission
should sign a formal cooperative agreement with all subgrantees for each year that funding is received from
the Commission.

Commission Response:

The Commission concurs with the recommendation to continue to place emphasis on implementation of
policies. The Commission will continue to focus on risk management in the implementation of recently
developed policies and procedures to ensure proper disbursement of Corporation funds The Commission
also concurs with the recommendation to execute a formal cooperative agreement with all subgrantees each
year that funding is provided by the Commission. This oversight was made only once and was not
repeated.

3.   Report on Compliance

Audit Recommendation:

     The Corporation should follow up with the Commission to determine whether the questioned amounts
     should be disallowed and recovered.
     The Commission should provide additional guidance to existing subgrantees on record retention and
     documentation standards for such items as eligibility, time sheets. member service hours, AmeriCorps
     roster updates on member status, and other claimed costs submitted for reimbursement and matching
     costs reported.
     The Commission should establish policies and procedures to ensure that all existing subgrantees
     maintain financial management systems that are capable of distinguishing expenditures attributable to
     grant and non-grant funding, identify costs by line item, and differentiate between direct and indirect
     costs, thus maintaining a clearer audit trail.
     The Commission should enhance its policies and procedures for review of subgrantee member support
     and program operating matching requirements to ensure compliance.
     The Commission should require existing subgrantees to document and adhere to file maintenance
     procedures that will ensure compliance with AmeriCorps Provisions. Procedures should include,
     where applicable. a checklist for all required documentation, a training program for personnel who are
     responsible for maintenance of member files, and a periodic review process where selected member
     files are checked for compliance with documented procedures. The Commission should then verify
     the subgrantee compliance with these file maintenance procedures during periodic site visits.

Commission Response:

     The Commission will work with the Corporation to review questioned amounts and determine if the
     questioned costs should be disallowed and recovered.
     Correct guidance has been distributed to subgrantees for the last two program years (1 999-2001) in
     accordance with AmeriCorps provision C.26 and will be distributed on a regular and on-going basis to
     all current and new programs.
      All subgrantees currently maintain financial management systems that are capable of distinguishing
     expenditures attributable to grant and non-grant funding, identifying costs by line item, and
     differentiating between direct and indirect costs. The Commission will continue to work with
     subgrtantees to insure they maintain records and funds so as to establish a clear audit trail.
     Exhibit E of the Draft dated 12/27/2001 illustrates that the Commission has implemented this
     recommendation.
     The grant reimbursement review claim form lists items that must be received by the Commission from
     the subgrantee before reimbursement can be made in compliance with AmeriCorps provisions.
     Training for all personnel responsible for maintenance of member files is done on an annual and on-
     going basis. Compliance is currently verified during site visits in accordance with the commission's
     new Risk-Based Monitoring Policy.
                                    inc~irredCost Audit Response - Missouri Commun~tyService Commission


AmeriCores Grant

A. Compliance Findings Resulting in Questioned Costs

    1. Lack of Adequate financial records for the Commission's sub-grants to the Grace Hill
       Neighborhood Services, Inc. and Youthnet of Greater Kansas City (Questioned Claimed Costs of
       $l,2O9,518. Questioned Match Amounts of $703,363, and Questioned Education Awards of
       $363,2 18).

   Commission Response:

   AmeriCorps Provisions, Section C.26 - Retention of Records states, "The Grantee must retain and
   make available all financial records, supporting documentation.. .for 3 years from the date of the final
   submission of the final Financial Status Report.. ." Our understanding of this Provision would indicate
   that only those records related to program years not completed with submission of a final FSR by
    1213111997 would be required to have such records available. A small percentage of the questioned
   costs occurred after 7/12/1999, the date of the Federal Register which provided the first accurate
   guidance on this issue. In a meeting with the Senior Auditor on 10115-16/2001 records were presented
   to challenge the most recent of the findings and the finding was eliminated.


    2. Lack of Documentation - Eligibility requirements were not met (Questioned Claimed Costs of
       $5,578,726. Questioned Match Amounts of $1,333,528, and Questioned Education Awards of
       $2,650,746).

       Documentation to support time and attendance records and proper authorization of timesheets was
       not evident (Questioned Claimed Costs of $25,420).

    Commission Response:

    Most member files lacking documentation are prior to 12131197. Based on AmeriCorps Provision,
    Section C.26 these records were not required to be maintained more than 3 years past the filing of the
    Final FSR. The Commission contends that these findings should be eliminated because they are based
    on records that the auditor says are missing when, in fact, the records were not required to be kept by
    the subgrantee.

    Documentation of citizenship is also an issue raised by the auditor. Prior to the issuance of Federal
    Register, Volume 64, No. 132, dated July 12, 1999, neither the Commission nor its subgrantees had
    specific guidance from the Corporation on the types of documentation required to verify citizenship
    eligibility of AmeriCorps members. (this is taken directly from page 2 of the audit draft dated
    1212712001) The Commission contends that all findings based on records prior to this should be
    eliminated. The Commission also contends that 1-9 forms issued by the U.S. Immigration and
    Naturalization for years prior to 7112199 should have been sufficient documentation under the
    guidelines at that time. The Commission would like it noted that the auditors did not perform any field
    tests on the documentation for citizenship or lawful permanent residency so there is no real evidence
    that a problem exists.

    AmeriCorps Special Provision No. 14 states, in part, that "the Grantee must maintain verifiable records
    which document each member's eligibility to serve based upon citizenship or lawful permanent
    residency, birth date, level of educational attainment, date of high school diploma or equivalent
    certificate (if attained)." The applications on file include date of high school diploma or equivalent
    certificate. There is no requirement for actual copies of diplomas or equivalency certificates to be kept
    on file, therefore, this finding should be eliminated.

    The Commission contends that the finding related to lack of documentation regarding proof of age
    should be eliminated because the application contains date of birth information.
                                                              -
                                Incurred Cost Audit Response Missouri Community Service Commission



3. General Ledger andlor payroll records were not maintained (Questioned Claimed Costs of
   $904,309).

Commission Response:

All questioned costs with the exception of the Urban League of Kansas City occurred before
1213111997. While it is the Commissions intention to have subgrantees maintain adequate records to
verify payroll, there is no requirement that the records be kept longer than 3 years past the submission
of the final Financial Status Report (AmeriCorps Provision, Section C.26). The Commission does
concur with the finding related to the Urban League of Kansas City. For this reason and many others,
this program was discontinued midway into its first and only grant year.

4. Documentation to support AmeriCorps member's terms of service was not maintained (Questioned
   Claimed Costs of $24,595, Questioned Match Amount of $4,340, and Questioned Education
   Awards of $3,444).

Commission Response:

The Commission concurs with questioned amounts occurring after 12131I 1997. Documentation of
member's terms of service is addressed in the Commission's new Risk-Based Monitoring Policy.
Issues relating to terms of service will be addressed as identified through the Risk-Based Monitoring
Policy.

5. General Ledger detail did not agree to Monthly Reimbursement Requests (Questioned Claimed
   Costs of $79,121 and Questioned Match Amounts of $147,770).

Commission Response:

     The Commission concurs with this finding. This funded program was discontinued for this and
     other reasons.

6.   Documentation to support selected payments claimed under the subgrants was not maintained
     (Questioned Claimed Cost of $47,862).

     Commission Response:

     The following will address the questioned costs by subgrantee:
         Grace Hill Neighborhood Services - Documentation is available and was provided for the
         amounts of $276 and $194. The amount of $4,684 was in accordance with this organizations
         approved cost allocation plan and as such requires no documentation. In addition it occurred
         prior to time period ending 1213111997 which requires no records retention according to
         AmeriCorps Provision, Section C.26.
         American Youth Foundation - All findings prior to December 3 1, 1997 and should be
         eliminated pursuant to AmeriCorps Provision, Section C.26.
         YMCA of Greater Kansas City - All findings prior to December 3 1, 1997 and should be
         eliminated pursuant to AmeriCorps Provision, Section C.26.
         Urban League of Kansas City - The Commission concurs with this finding and this program
         has been discontinued for this and other reasons.
         Lincoln University - Finding is prior to December 3 1, 1997 and should be eliminated
         pursuant to AmeriCorps Provision, Section C.26.
         University of Missouri - Kansas City - The Commission concurs with this finding and this
         program has been discontinued for this and other reasons.
         Republic RIIl School District - The questioned amounts appear to be in-kind contributions of
         training services. Documentation is available and can be produced by the Subgrantee.
                                    Incurred Cost Audit Response - Missouri Community Service Commission



             St. Joseph Youth Alliance - All findings are prior to December 3 1, 1997 and should be
             eliminated pursuant to AmeriCorps Provision, Section C.26.

     7. Improperlineligible payments made (Questioned Claimed Costs of $1 14).

     Commission Response:

     The Commission concurs with this finding. The money was not recovered and the grant has been
     closed for several years.

     8. Matching requirements were not met (Questioned Claimed Costs of $33,965).

     Commission Response:

     The following will address the questioned costs by subgrantee:
     American Youth Foundation - Average administrative costs for the 3-year period of this grant did not
     exceed 5%. As the requirements do not specifically state a time period, the Commission feels this
     finding should be eliminated.
     Youthnet of Greater Kansas City - The findings here have been question in a previous audit in
     December 1996, and as such should be eliminated as a finding from this audit.
     YMCA of Greater Kansas City - The information contained in this finding does not correspond to the
     MCSC records on file. CSC grants are assessed at a maximum of 85% of what the subgrantee needs to
     operate. Minimum match of 15% must be achieved to operate a program at 100%.
     Lincoln University - Rounding, an acceptable practice by the MCSC, was used here.
     United Way of the Ozarks - The Commission concurs with this finding.
     Southeast Missouri State University - Commission records indicate matching requirements were met
     for program years 1996-97 and 1997-98.

     9.   Match amounts claimed are not properly supported (Questioned Match of $1,508,386).

     Commission Response:

     The following will address questioned costs by subgrantee:
     Grace Hill Neighborhood Services, Inc - Monthly reimbursement requests and monthly expense
     reports to support member and non-member support matching costs reflected in the quarterly FSR are
     on file with the Commission and would have been made available upon request. Source documents
     such as payroll registers and other supporting documents for the matching expenditures recorded on
     monthly reimbursement requests and monthly expense reports that were provided for the 1996-97 and
      1997-98 program years are available and would have been provided upon request. American Youth
     Foundation - All findings are prior to December 3 1, 1997 and should be eliminated pursuant to
     AmeriCorps Provision, Section C.26.
     Urban League of Kansas City - The Commission concurs with this finding. This grant was
     discontinued for this and other reasons. All costs were recovered.

B.        Other Compliance Findings

      10. Lack of Documentation
              Parental consent
              Criminal record check
              Position descriptions
              Member contracts
              Orientation
              Member start and end datesILocation of member's service
              Mid-term and end-of-term evaluations
              Enrollment forms, change of status forms, exitlend-of-term-of-serviceforms
                                                               -
                                  Incurred Cost Audit Response Missouri Community Service Commission



           Health Insurance Coverage
           Financial Status Reports (FSRs ) and Progress Reports
           Semi-annual staff certifications

    Commission Response:

    Member files will continue to be monitored to ensure compliance with regards to documentation. Site
    visits and training, both annual and on going, will ensure compliance in all areas of documentation.

Administration and Program Development and Training (PDAT) Grants

C. Compliance Findings Resulting in Question Costs

    11. Matching requirements were not met (Questioned amounts $7,760).

   Audit Recommendation:

   We recommend the commission follow-up with the Corporation to resolve noncompliance with
   matching requirements for the 1994- 1995 grant period.

   Commission Response:

   The Commission concurs and has again requested a response from the Corporation on this issue.
                                                                                                          Appendix B
                                                        CORPORATION

                                                        FOR N A T I O N A L

                                                       3SERVICE

To:               Luise S. Jordan, Inspector General

Through:

From:


Date:             January 28,2002

Subj:             Response to OIG Draft Audit Report 02-1 1: Incurred Cost Audit of Grants
                  Awarded to the Missouri Community Service Commission


We have reviewed the draft audit report of the Missouri Community Service Commission grants.
Due to the limited timeframe for response, we have not yet conducted a comprehensive review
nor analyzed documentation from the Missouri Commission supporting the questioned costs.
We will respond to all findings and recommendations when the audit is issued. Before the
Corporation can resolve any of the issues and the questioned costs, we will need to review the
working papers. In most cases, we cannot determine the basis for the questioned costs without
that documentation. The Missouri Commission has provided an extensive response and begun
corrective action as needed.

The auditors may have incorrectly questioned costs associated with member living allowances
because the programs used the Immigration and Naturalization Service Form 1-9 as a way to
document U.S. citizenship or status as a legal permanent resident alien. The 1-9 form is a
legitimate form for certification of AmeriCorps eligibility as long as it is used to confirm status
as a citizen or legal permanent resident alien. It is unclear from the draft report whether the
auditors simply discounted the use of the Form 1-9 because it certifies employment eligibility in
general or actually reviewed forms at program sites to determine if the programs were using the
form correctly to verify the more specific categories of citizenship or resident alien status. The
Corporation will have to review this issue during the resolution process.

The draft audit report summary statement also questions significant costs due to the lack of
records at some subgrantees and attempts to assign culpability to the Corporation for not
providing guidance to the Commissions for record retention for their subgrantees. However, the
report goes on to state that the grant provisions contain the requirements for record retention for
the grantee. We disagree with the auditors that guidance has not been provided to our grantees
for subgrantee record retention. Given this, it is unclear to us what standard the auditors used for
subgrantee record retention and related questioned cost determinations.




 NATIONAL SERVICE: GETTlNG THINGS DONE                                                             -
                                                                         1201 New York Avenue, N.W. Washington. D.C. 20525
                                                                         telephone:202-606-5000 website: www.natio&~lx.org
           .
 Jm~nCorps Learn and S e v Arnenca   . " :rrnc~c m c r S e m c e Corps
                                                                                Appendix B

The Corporation conducted an Administrative Standards Review of the Missouri Commission in
December 2001. That review is a comprehensive assessment of all aspects of Commission
operations, including assessment of financial systems and is the Corporation's primary
mechanism for assessing Commission systems. Through it we are working closely with the
Commission to assess and improve operations.

Finally, we noted several factual errors we have provided to you separately.
                                                                               Appendix C




                  KPMG's Comments on Commission Response
The following paragraphs present KPMG's comments on the Commission's general and
specific responses to the findings and recommendations included in this report. We
continue to believe our findings are valid, based on the results of the incurred cost audit
performed on the costs claimed by the Commission and its subgrantees. Further, our
recommendations, once fully implemented should result in improvements to internal
controls over the operations of the Commission and those of its subgrantees. Our
comments related to the Commission's general response are presented for each caption,
followed by our comments related to the Commission's specific responses in the
aggregate.

General Response

Audit Schedule and Scope
The audit was conducted in accordance with Government Auditing Standards using the
CNS OIG's audit program for a Full Scope Incurred Cost Audit of Corporation Awards
with Subrecipients as a guide. Our audit approach, including coverage of 90% of total
claimed costs, had been developed prior to the commencement of the audit, with the
participation of CNS OIG and its approval.

We do not concur with the Commission's contention that insufficient notice was given
prior to the start of the audit. The initial notification letter from the CNS OIG to the
Commission was dated December 15,2000, and included instructions for the
Commission to notify its subgrantees that documentation maintained at subgrantee
locations might be required for the completion of the audit. A formal engagement letter
from KPMG dated January 17,2001, was also sent to the Commission, which included
reference to the need to provide documentation maintained at the subgrantee level. The
Commission signed the engagement letter on Janaury 29,2001, and returned it to us. Our
entrance conference with the Commission was held on March 6,2001.

Audit Methodology
As the Commission admits, the use of estimates where actual costs are not available is an
accepted audit practice. Since the Commission and its subgrantees could not provide
actual costs, the use of estimates, based on other Commission trends and relevant
Corporation data, was required in order to complete our audit procedures. However, we
do not understand the basis for the Commission's statement that "The use of estimates
assumes that a questioned cost on one sub-grant would be present on all sub-grants when
this is not necessarily a true assumption." No such assumption was used by KPMG in
completing the incurred cost audit.

Record Retention Requirements
Throughout its response, the Commission expressed concern over KPMG's interpretation
of the AmeriCorps record retention requirement which has given rise to a significant
                                                                               Appendix C

portion of the questioned costs. As indicated in our report, the AmeriCorps Provisions
state that the grantee must retain and make available all financial records, supporting
documentation, statistical records, evaluation data, member information and personnel
records for 3 years from the date of the submission of thefinal expenditure report
(Financial Status Report). Several subgrantees we audited had not submitted the final
Financial Status Report (FSR) for all program years under audit. In those instances
where subgrantees had submitted final FSRs, the Corporation had not administratively
closed out the sub-grants; therefore, they remained subject to our audit scope. The
Commission should address this concern with the Corporation during the audit resolution
process.

Member Eligibility/DocumentationRequirements
The Commission also expressed concern over member eligibility documentation
requirements. As indicated in our report, the AmeriCorps Special Provisions state, in
part, that "the Grantee must maintain verifiable records which document each member's
eligibility to serve based upon citizenship or lawful permanent residency, birth date, level
of educational attainment, date of high school diploma or equivalent certificate (if
attained)." Thus, even though specific guidance may not have been given by the
Corporation to the Commission, adequate documentation proving eligibility should have
been obtained and maintained to support member eligibility. Prior to 1999, most
subgrantees obtained and maintained copies of dnvers' licenses and social security cards
as verification for member's citizenship eligibility. Such documentation is not sufficient
to support citizenship.

The Commission also asserts that, in some cases, supporting documentation was
available, but never requested during the audit. We do not concur with this statement.
The Commission and its subgrantees were given every opportunity to provide
documentation to support both member and nonmember costs claimed for
reimbursement. To accommodate certain subgrantees, we accepted documentation even
after fieldwork was completed at a particular subgrantee location. Findings were issued
for amounts that were not properly supported as of the completion of the incurred cost
audit. If the Commission is in possession of additional documentation, which was not
available during the time of the audit, these items should be given to the Corporation as
part of the audit resolution process.

The Commission further asserts that its "cursory review of the original work papers "
indicated that some questioned costs were never tested in the field and that the work
papers were "altered" by OIG staff after fieldwork was complete. This statement is
completely untrue and indicates the Commission's lack of knowledge as to the standards
under which audits are required to be conducted. Such standards include a requirement
that all work papers be reviewed by a supervisor or someone other than the preparer.
Supervisory reviews usually result in changes made to work papers to clarify
documentation of audit work. Such review ensures adequate documentation exists to
support the conclusions reached. Further, to the extent the Commission or its subgrantees
provided additional information to support costs which were initially questioned, the
                                                                             Appendix C

original work papers would obviously need to be revised to take the additional
information into consideration.

Specific Response

Many of the Commission's specific responses relate to their assertion that documentation
for program years prior to 1997-98 is not required to be maintained and, therefore,
findings related to these program years should be eliminated. We disagree as noted
above in our response related to Record Retention Requirements.

The only other specific responses of the Commission which we believe require comment
are as follows:

   Finding No. 6 - The Commission indicated that documentation is available and was
   provided for the amounts of $276 and $194 which were questioned for Grace Hill
   Neighborhood Services, Inc. Such information was not provided to us prior to the
   issuance of the draft report.
   Finding No. 8 - American Youth Foundation - Our understanding is that
   administrative cost compliance should be computed for each program year. The
   Commission should bring its contention that the use of average administrative costs
   over a three year period as an acceptable determination of compliance to the
   Corporation's attention during the audit resolution process.
   Finding No. 8 - Youthnet of Greater Kansas City -The fact that this finding has been
   included in a previous audit does not preclude it from inclusion in our report.
   Finding No. 8 - Lincoln University - We do not concur that rounding from 14.73% to
    15% is, necessarily, appropriate. The Commission should address this matter with the
   Corporation during the au&t resolution process.
   Finding No. 8 - Southeast Missouri State University - As noted in our report, the
   University could not provide adequate documentation to support that it had met its
   matching requirements.
   Finding No. 9 - The Commission indicated that documentation is available at the
   Commission to support the matching costs claimed by Grace Hill Neighborhood
   Services, Inc. As the Commission is aware, we visited this subgrantee twice during
   the incurred cost audit. We were never informed that documentation we requested
   from the subgrantee may be available from the Commission; therefore, no specific
   request for such documentation from the Commission was made.

Overall, our findings were based on relevant AmeriCorps Provisions and the
documentation made available to us by the subgrantees or Commission during our audit
fieldwork or the approximate three-week "grace period" agreed to by the OIG following
the exit conference. Any additional documentation that the Commission has
subsequently located that it believes will clear the reported findings, should be forwarded
to the Corporation as part of the audit resolution process.
                                                                              Appendix D



              KPMG Comments on Corporation's Response

The following paragraphs present KPMG's comments on the Corporation's response to
the findings and recommendations included in this report. The "factual errors" referred
to at the end of the Corporation's response have be appropriately corrected in our report.

Corporation's response

The Corporation indicated that the draft report was not clear on whether the auditors
discounted the use of the Form 1-9 because it certified employment eligibility in general.

KPMG's response

We reviewed the Form 1-9 at the subgrantees, as this was the form that was provided for
member eligibility verification. We did not discount the use of the 1-9 form if the
supporting documentation reviewed to complete the form verified citizenshiplresident
eligibility. However, a majority of the subgrantees checked the boxes for driver's license
and social security card and maintained copies of these documents. There were very few
subgrantees that actually checked the box for birth certificate and maintained a copy of it.
We have added a sentence to clarify this in the report.

Corporation's response

The Corporation indicated that record retention guidance provided by the Corporation
should not be questioned.

KPMG's response

We disagree with the Corporation in that, the Corporation has not informed the
Commission to maintain all documentation in support of grants that have not been closed
to date. Thus, even for those subgrantees that have submitted final Financial Status
Reports, all supporting documentation needs to be maintained until the Corporation
closes out the grant.
